<html>
<title> - ADDRESSING THE HARMFUL EFFECTS OF DANGEROUS DRUGS IN NATIVE COMMUNITIES</title>
<body><pre>[Senate Hearing 114-43]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 114-43
 
                ADDRESSING THE HARMFUL EFFECTS OF 
               DANGEROUS DRUGS IN NATIVE COMMUNITIES

=======================================================================

                             FIELD HEARING

                              BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                    U.S. GOVERNMENT PUBLISHING OFFICE
95-501 PDF              WASHINGTON : 2015                    
               
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe998e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a>  
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Field hearing held on March 31, 2015.............................     1
Statement of Senator Barrasso....................................     1

                               Witnesses

Crofts, Hon. Christopher A., U.S. Attorney. District of Wyoming, 
  U.S. Department of Justice.....................................     3
    Prepared statement...........................................     5
Cruzan, Darren, Director, Office of Justice Services, Bureau of 
  Indian Affairs, U.S. Department of the Interior................     7
    Prepared statement...........................................     9
Goggles, Sunny, Director, White Buffalo Recovery Program, Arapaho 
  Tribe of the Wind River Reservation............................    35
    Prepared statement...........................................    37
Hanson, Andrew, Special Agent, Wyoming Division of Criminal 
  Investigation..................................................    12
    Prepared statement...........................................    14
Mcswain, Robert G., Acting Director, Indian Health Service, U.S. 
  Department of Health and Human Services........................    30
    Prepared statement...........................................    31
Ravenelle, Thomas, Special Agent In Charge, Denver Field Office, 
  Federal Bureau of Investigation................................    21
    Prepared statement...........................................    22
Roach, Barbra, Special Agent in Charge, Denver Field Division, 
  U.S. Drug Enforcement Administration, U.S. Department of 
  Justice........................................................    17
    Prepared statement...........................................    19
St. Clair, Jr., Hon. Darwin, Chairman, Eastern Shoshone Tribe....    26
    Prepared statement...........................................    28
Tillman, Claullen, Eastern Shoshone Tribal Member; Rocky Mountain 
  Representative, United National Indian Tribal Youth............    40
    Prepared statement...........................................    41


      ADDRESSING THE HARMFUL EFFECTS OF DANGEROUS DRUGS IN NATIVE 
                              COMMUNITIES

                              ----------                              


                        TUESDAY, MARCH 31, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                   Ethete, Wyoming.
    The Committee met, pursuant to notice, at 10:31 a.m. in the 
Wyoming Indian High School, Hon. John Barrasso, Chairman of the 
Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Welcome everyone. I'm John Barrasso, Senator 
from Wyoming, and I would welcome all of you here to Central 
Wyoming, to Ethete.
    We will start with an invocation, and Ivan Posey is here, 
who is going to lead us in that invocation. We'd like everyone 
to stand up before we start the official hearing. Do you want 
to lead the invocation?
    Mr. Posey. Well, everyone can probably hear me. I just want 
to thank the senator here and our Chairman Darwin for asking me 
to say a prayer. And I know that there's some older people in 
the crowd that are not much older than I am, but I'd like to 
welcome the senator here and all the people that are interested 
in the subject. We know the health and well-being is what I 
wish for everybody here. We have a lot of issues that face us, 
and I'll go ahead. Help me out, please.
    Hail, we approach you this morning and thank you once again 
for this wonderful life and all the blessings you bestow upon 
us. We thank you for the opportunity to get together to discuss 
issues, and give us the strength and guidance to help one 
another out. Watch over our older people, our families and the 
young people in our communities.
    We thank you for the food and the beautiful earth you have 
given us and the people you place in our lives. We ask your 
forgiveness for the many times we've failed to please you. 
Watch over us. Watch over this meeting. Help everybody to have 
safe travels home after this meeting, and we send our love and 
our prayers in Jesus Christ's name. Amen.
    The Chairman. Well, good morning. I call this hearing to 
order. I want to welcome everyone to the Senate Committee on 
Indian Affairs Oversight Hearing on Addressing the Harmful 
Effects of Dangerous Drugs in Native Communities. As Chairman 
of the Committee, I call this important oversight hearing to 
examine these problems and, even more importantly, to find 
solutions, solutions which could address the problems and help 
people live healthier lives.
    I'd first like to thank the Wyoming Tech Center at the 
Wyoming Indian High School and the Wind River Indian 
Reservation and Superintendent Michelle Hoffman for hosting 
today's Committee hearing. I think it's important to bring this 
hearing right here to Wind River Indian Reservation. It is the 
home of two Indian tribes, the Northern Arapaho and the Eastern 
Shoshone.
    So I want to welcome and recognize the leaders in 
attendance here today. From the Northern Arapaho Tribe, 
Chairman Dean Goggles is here, Rich Brannan is here, David Ron 
McElroy, Forest Lightman, Norman Willow and Darrell O'Neal.
    And from Eastern Shoshone Tribe, Chairman Darwin St. Clair, 
who's going to be testifying in the second panel, Robert Nick 
Harris, Jr., Bob Herford, Jodie McAdams and Ivan Posey. If I 
could ask all of you to stand and be recognized.
    [Applause.]
    The Chairman. We also have with us some elected officials 
from the State, State Senator Cale Case, State Representatives 
Jim Allen and Lloyd Larson, and former State Representative 
Patrick Goggles. If you could stand, and we'd recognize you as 
well and thank you.
    [Applause.]
    The Chairman. You know, about a decade ago, this community 
was targeted by criminal drug trafficking organizations. The 
meth brought in by those criminals had devastating effects. Due 
to the efforts of the tribal government as well as the federal, 
state and local law enforcement agencies, these organizations 
were successfully dismantled.
    The former U.S. Attorney in Wyoming, then Matt Mead, who is 
currently the governor, testified before our Indian Affairs 
Committee in 2006 that having the support of tribal leaders was 
the key to the success of those efforts. Now, I believe that 
support is still key, and their presence today is encouraging.
    I also want to thank the law enforcement officials here 
today for their special dedication and their hard work. Even 
though unseen and without recognition, their efforts positively 
impact Indian communities.
    A little over a week ago, Navajo Nation Police Officer Alex 
Yazzie was shot and killed while serving his community, so I 
want you to please join me in a moment of silence as we honor 
Officer Yazzie and his sacrifice.
    The Chairman. Thank you.
    Throughout Indian Country, drugs affect communities in 
unfathomable ways. Both the Wyoming Division of Criminal 
Investigation and the Bureau of Indian Affairs have generally 
noted to my staff that the drug abuse often leads to other 
crimes, including theft, burglary, assaults and even homicide.
    For far too long, the Wind River Reservation had one of the 
highest rates of violent crimes in Indian Country. In 2009, I 
worked with tribal leaders and then Secretary of Interior 
Salazar to improve law enforcement services on the Wind River 
Reservation. As a result, the Wind River Reservation was 
selected for the Bureau of Indian Affairs law enforcement pilot 
program to reduce violent crime. It was called the High 
Priority Performance Goals Program.
    According to the Bureau of Indian Affairs, from 2009 to 
2013, the Wind River Indian Reservation had a 60 percent 
reduction, a 60 percent reduction in violent crime. It's a 
remarkable accomplishment and perhaps a template that other 
tribal communities could model.
    We do not want the success of this pilot program to be 
diminished. A key contributing factor in the continued success 
is the multi-jurisdictional and the interagency approach. 
Service providers play a key role in preventing and treating 
addictions, in supporting families and protecting children. The 
Committee is looking for solutions to improve responses to 
these problems and the emerging trends in substance abuse.
    We will hear today from multiple witnesses, incredible 
individuals, Panel I: The Honorable Christopher Crofts, U.S. 
Attorney for the District of Wyoming, Cheyenne; Mr. Darren 
Cruzan, the Director of Office of Justice Services, the Bureau 
of Indian Affairs, Washington, D.C.; Mr. Andrew Hanson, Special 
Agent, Wyoming Division of Criminal Investigation from 
Cheyenne; Ms. Barbra Roach, Special Agent in Charge for the 
Denver Field Division of the U.S. Drug Enforcement 
Administration in Denver; and Mr. Thomas Ravenelle, who is 
Special Agent in Charge, Denver Field Office of the Federal 
Bureau of Investigation.
    At the end of the witnesses' testimony, we will have 
questioning. I will tell you, those testifying today, your full 
written testimony will be made part of the official hearing, so 
I'd ask you to please try to keep your statements to five 
minutes so that we have time for questions and discussions. I 
look forward to hearing the witnesses' recommendation, so 
please proceed.

         STATEMENT OF HON. CHRISTOPHER A. CROFTS, U.S. 
       ATTORNEY. DISTRICT OF WYOMING, U.S. DEPARTMENT OF 
                            JUSTICE

    Mr. Crofts. Thank you, Mr. Chairman. We welcome you home to 
Wyoming and particularly thank you for holding this hearing on 
this very important topic on the Wind River Reservation.
    I'd like to briefly introduce some people that I brought 
with me today. Right behind me is Bob Murray. Bob is the chief 
of our Criminal Division. As such, he supervises all criminal 
cases in our office and throughout the District of Wyoming, and 
he has many years of legal and prosecutorial experience. But 
more important today, he is also an enrolled member of the 
Eastern Shoshone Tribe, was raised here on the Wind River 
Indian Reservation, so he has a good understanding of the 
people and the issues, and we use him all the time for advice 
on issues here.
    Secondly is Stephanie Sprecher over my right shoulder. 
Stephanie is the supervisor in our Casper office. She's here 
today because she's also OCDETF, Organized Crime Drug 
Enforcement Task Force, coordinator, and as such, she oversees 
all the drug prosecutions in our office throughout the state.
    Lastly is Jason Conder down on the right. We formerly 
handled our Wind River Indian Reservation cases from Cheyenne 
and then Casper when I was first hired in the office in 1990, 
and then in 1995, Dave Freudenthal, the U.S. Attorney at the 
time, in order to better serve Wind River, to be closer to 
victims and witnesses and agents for the crimes here, opened 
our office in Lander. In 1995, myself and one paralegal were 
the only staff in that Lander office. We now have four AUSAs 
there, and they work almost exclusively on Wind River cases. 
Jason is one of those four.
    Kerry Jacobson is our supervisor in the Lander office, a 
wonderful young woman, but she's in Denver today with her 
daughter who needs a serious medical procedure, so she 
apologizes for not being here. They will not make formal 
statements, but they're available for questions if you have 
them, Mr. Chairman.
    Getting to the subject of the hearing, the harmful effects 
of dangerous drugs at Wind River, it is our belief that by far, 
the most dangerous and most harmful drug is alcohol. It has 
many bad effects on the health of the people, the life 
expectancy, family structures, children, the Indian culture 
itself, but I'll talk only about what we see directly in our 
prosecutorial capacity prosecuting violent crimes on the Wind 
River Reservation.
    We believe alcohol causes and is involved in almost all of 
the crimes of violence, including sexual crimes against both 
adults and children that we see and prosecute. What we see on a 
regular basis is a group of people drinking to excess, someone 
gets mad about something, picks up the nearest object that will 
serve as a weapon and strikes out at the nearest person, who 
often is a friend or a relative, and too often serious injury 
results from that. Often the next day no one remembers what the 
argument or fight was about. It's just irrational, senseless 
violence that is fueled by far too much alcohol.
    We prosecute those cases, but upon conviction, they get a 
fairly lengthy federal prison sentence in a place other than 
Wyoming, which is kind of a problem because local friends and 
relatives can't visit, and in prison, they likely don't get any 
alcohol treatment.
    There is a treatment program in the Bureau of Prisons, but 
there's an incentive for drug offenders. If they complete that, 
then they can get up to a year's reduction in sentence. That's 
not available for people convicted of violent crime.
    So too often when they're released from prison, upon 
supervised release from three to five years, again, there is no 
satisfactory treatment facility back home, no halfway house, no 
residential treatment facility. There are some small outpatient 
programs, usually based on 12 Step, wonderful people here who 
do the best they can with the resources they have, but they 
can't cope with this sort of thing.
    And so what we think is needed is a comprehensive 
residential treatment facility for drugs and alcohol, a staff 
of medical personnel with training in addiction, with a 
lockdown capacity for those persons that are under tribal or 
federal court order for criminal supervision, to do a better 
job of moving those people, transitioning them back into 
society and making them successful.
    One result of that deficiency is that more than half of the 
defendants who are released from prison on supervision are 
revoked and sent back to prison. Almost always the revocation 
is for more alcohol abuse. So this is an endless and vicious 
cycle, and we need to do something to break it, which we think 
should be treatment and prevention programs.
    Our second concern about effects of alcohol and drugs on 
the reservation is primarily pharmaceutical drugs, the improper 
and unlawful use of those. We had a horrible case here a few 
years ago where three young girls had a painkiller that one of 
the grandmothers had, and three children died. One of the cases 
more recently, some kids took pills from home to school. 
Fortunately, no one was injured. That's a big problem we're 
seeing statewide.
    We do not treat those--sometimes those overdose deaths are 
just called unfortunate accidents. We see them as a crime, 
unlawful distribution of a drug that results in death. And so 
we and then Bob has been instrumental and has fairly rigorously 
prosecuted those, but that obviously does not help the dead or 
disabled victim. Kids seem to be particularly vulnerable 
because of the pills, because they see they're safe. They see 
they're prescribed by a doctor or dispensed by a pharmacy, so 
they abuse those, and then sometimes they switch to heroin.
    Mr. Chairman, my time is out, so I'll just say we remain 
convinced that treatment and prevention is--we need 
prosecution, but we need treatment and prevention.
    [The prepared statement of Mr. Crofts follows:]

   Prepared Statement of Hon. Christopher A. Crofts, U.S. Attorney. 
            District of Wyoming, U.S. Department of Justice
    Good morning. Welcome home, Senator Barrasso, and welcome to 
Wyoming to the other Committee members who are here today. I very much 
appreciate your willingness to come here to the Wind River Reservation 
to hold a field oversight hearing on this very important topic that is 
having such an impact on the people of the Wind River Reservation.
    I would like to recognize a few people with me today from my staff. 
I brought my Chief of our Criminal Division who is located in our main 
Cheyenne office. He is responsible for the general supervision of all 
the criminal cases we consider and prosecute in the District. He is 
also an enrolled member of the Eastern Shoshone Tribe and was raised on 
the Wind River Reservation, so he has a special understanding of the 
people and issues here. The Supervisor of our Casper office and OCDETF 
(Organized Crime Drug Enforcement Task Force) coordinator is also in 
attendance. She is the supervisor/coordinator for all of the drug cases 
we consider for prosecution in the District, including those from the 
Wind River Reservation. I have also brought an Assistant U.S. Attorney 
from our Lander Office, which handles many of the criminal matters in 
the Wind River Reservation.
    One additional introductory statement I wish to make is to say that 
I will generally refer to the people who live on the Wind River 
Reservation as ``Indians'' rather than ``Native Americans.'' I mean no 
disrespect in doing that. The reason I do it is that all of the 
Statutes that we work with daily refer to Indians. To prosecute a case 
under the Major Crimes Act we must prove as elements of the case both 
that the Defendant is an ``Indian'' and that the case occurred in 
``Indian Country.'' Obviously this is a meeting of the ``Indian Affairs 
Committee.'' I have discussed this with many members of the Eastern 
Shoshone and Northern Arapaho tribes who reside here, and believe that 
mostly they are not offended by that, and tend to call themselves 
``Indians.'' But I know some people think it is more polite or 
appropriate to use the term ``Native American.'' To those people I 
apologize, and ask that you understand my reasons.
    As you probably know, we share jurisdiction on the Reservation with 
the Tribal Court. It is an oversimplification, but generally the United 
States Attorney's Office prosecutes the more serious felony cases in 
Federal Court and the Tribal Prosecutor prosecutes the misdemeanor 
cases in Tribal Court. Our office continuously communicates with the 
Tribal Prosecutor as to which court is the most appropriate in a given 
situation, usually depending on the weapon used and the degree of 
injury in violent crime cases. For example, unarmed assaults will 
generally go to the Tribal Court. Using our prosecutorial discretion 
and in line with Department policy, we have always said that we will 
prosecute any drug case-referral from Indian Country, if the 
circumstances indicate that we should do so.
    Reservation cases represent a significant part of our caseload in 
Wyoming. Last year they comprised about 25 percent of our total 
criminal workload. To better deal with these cases, and to be closer to 
the place where the crime occurred, the victims, the witnesses and the 
investigators, the U.S. Attorney opened an office in Lander in 1995. 
Lander is a town about ten miles from here that was within the original 
Wind River Reservation created by the Fort Bridger Treaty of 1868. That 
southern part of the Reservation was ceded back to the United States in 
the 1872 Brunot Cession--but Lander is still very close to the 
Reservation and much more convenient for our purpose than our offices 
in Cheyenne and Casper. Our staff in Lander occasionally prosecutes 
cases from other places in northwest Wyoming, but the majority of their 
time is spent on Reservation cases. As the sole AUSA in this branch 
office when it opened in 1995, I handled nearly all the criminal 
matters from Wind River with the assistance of one paralegal. We now 
thankfully have four lawyers in that office. The Lander staff continues 
to handle almost all the criminal cases from Wind River. Our Civil 
Division is located in Cheyenne, but they represent the United States 
on the Civil cases that come from the Reservation. As you know our 
Federal District Courts are located in Casper and Cheyenne. 
Unfortunately, the Federal Courthouse in Lander closed at about the 
same time we opened our Lander office.
    Getting to the subject of your hearing, ``Addressing the Harmful 
Effects of Dangerous Drugs in Native Communities,'' I will start by 
saying that there are many harmful effects, and they need to be 
addressed far better than we have done in the past, so once again I 
appreciate the Committee's interest and attention to this subject.
    It is my belief that by far the most damaging drug on the Wind 
River Reservation is alcohol. I will speak primarily about the impact 
of alcohol on crime, but obviously it has many more negative effects--
on health, families, Indian culture, and quality of life on the 
Reservation in general. I have observed during my twenty five year long 
career, that alcohol abuse is a contributing factor in most of the 
violent crimes committed on the Reservation. I have been personally 
involved, directly or indirectly, in the prosecution of far too many 
crimes of violence on the Reservation for about twenty-five years. I 
have seen very few cases of violent crime in Indian Country that did 
not involve alcohol abuse. Given this trend, prevention and treatment 
of alcohol abuse must play a significant role in an overall strategy to 
reduce the rate of violent crime, including sexual crime, at Wind 
River.
    Not only does alcohol abuse correlate with criminal conduct in the 
first place, but too often we cannot deter further alcohol--fueled 
recidivism and break the cycle of violence and incarceration. Federal 
prison inmates may enroll in the substance abuse program operated by 
the Bureau of Prisons pursuant to the Violent Crime Control and Law 
Enforcement Act of 1994; however, violent crime offenders are not 
eligible for the sentence reduction given to drug offenders under 18 
U.S.C.  3621(e)(2). I am told that this can cause a disincentive for 
the persons convicted of violent crimes to seek treatment in prison 
because it uses treatment space otherwise used by a person with a drug 
conviction who can get a sentence reduction. This leads to peer 
pressure for the violent offenders to avoid the treatment program. 
Then, when they are released from the prison component of their 
sentence for a violent crime, there is no half-way house on the 
Reservation that focuses on re-entry and transition back into the 
Reservation community. This is reflected in a very high revocation rate 
among Indian defendants convicted of violent crimes who get sent back 
to prison for violating the terms of their supervised release. Almost 
always the revocation results from alcohol abuse.
    Our office and representatives of the two tribes at Wind River have 
been selected to attend an ``Intergovernmental Re-entry Workshop'' at 
the end of May 2015. There will be an opportunity to talk to people 
from the Bureau of Prisons at that workshop, and I'm hopeful we can 
achieve some better integration of their programs, with the local 
programs that exist on the Reservation, and do a better job of 
preventing the revocation of release. Effective prevention and 
treatment of alcohol and drug abuse is far from easy, even with 
adequate resources available, but I believe it is worth the effort. 
Ideally, better alcohol (and drug) treatment and prevention programs 
would prevent the crimes of violence from occurring in the first place.
    There are some local alcohol and substance abuse programs on the 
Reservation, including Sunny Goggles of White Buffalo Recovery. The 
services offered by this recovery program and others are essential to 
the overall strategy to reduce crime and recidivism. An endless cycle 
of felony prosecutions, revocation of release and re-imprisonment, is 
clearly not the answer. Mostly the local programs are outpatient 
programs, however, inpatient facilities where a tribal court judge or 
federal judge can order the individual to complete treatment prior to 
release back into the community may help to end the cycle of abuse and 
incarceration.
    Although alcohol abuse primarily fuels violent crime, Wind River is 
not immune from the harmful effects of other drugs as well. 
Methamphetamine, which is used to a much lesser extent than alcohol, 
damages families and communities throughout Wyoming and my office takes 
seriously any case involving this dangerous drug. Marijuana is commonly 
found, however our observation is that it does not generally contribute 
to violent crimes. In my opinion, the diversion of pharmaceutical 
drugs, and overdose deaths are the next most serious problem after 
alcohol. Kids are especially vulnerable because they see these drugs as 
``safe'' compared to street drugs, since they are prescribed and 
dispensed by a pharmacy. We had a tragic case several years ago in 
which three young girls died after ingesting pain medicine taken from a 
grandmother's house on the Reservation. We learned of another case 
recently where kids were taking pills from home to school and sharing 
them. Fortunately this was discovered before anyone was injured. We 
agreed with the Tribal Prosecutor that they should handle the 
prosecution in that case since no one was injured. Those two cases 
exemplify our strong relationship with our Tribal law enforcement and 
Tribal Court partners, where responsibility is shared.
    We have had too many of these cases across Wyoming in recent years. 
Sometimes these are considered to be tragic accidents and there is no 
enforcement action. Our office has been very involved in many of these 
cases, and we have taken the position that when prescription drugs are 
unlawfully dispensed and someone dies as a direct result, these are not 
``accidents'', but in fact criminal acts. In our experience, when pills 
become difficult to obtain, young people may turn to heroin as a 
cheaper and more available alternative. Fortunately we have not heard 
of such a case on the Reservation. In my opinion, this may be due to 
the distance of the Reservation from major urban centers, such as 
Denver or Salt Lake City. We remain vigilant for trends related to 
prescription drug abuse and heroin. DEA has indicated that they are 
exploring the option of placing a Tactical Diversion Squad (TDS) in 
Wyoming to address the diversion of pharmaceutical drugs. I welcome a 
TDS that focuses on the Wind River Reservation, as well as other parts 
of Wyoming.
    Alcohol and the diversion of pills, in my view, present the most 
serious problem for the Wind River Reservation. In short, I believe we 
need better prevention and treatment options to supplement enforcement 
and prosecution in order to reverse the abuse of these substances and 
lower violent crime on the Wind River Reservation.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any question you or other members of the Committee might have.

    The Chairman. Well, thank you so much for the testimony. 
And if anybody knows this community, you were born in Lander, 
grew up here, went to the university, then to Vietnam, then 
back to the university for a law degree, all of the time with 
DCI and then with Governor Freudenthal and then sent to Iraq in 
2005 as part of the efforts there, now back home and is U.S. 
Attorney. But obviously your heart and your love is right here 
in Fremont County where you reside. Thank you so much for being 
here. Your words mean so very much.
    Mr. Cruzan.

        STATEMENT OF DARREN CRUZAN, DIRECTOR, OFFICE OF 
       JUSTICE SERVICES, BUREAU OF INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Cruzan. Thank You, Chairman. It is an honor to be here. 
I appreciate the opportunity to speak about this very important 
issue.
    I would also like to introduce a few folks that I have 
brought with me. And behind me are a number of our special 
agents. One is our Deputy Associate Director Charles Addington, 
who basically supervises our national drug enforcement program. 
With him are four supervisor special agents from across the 
country, Algin Young from Bismarck, Mr. Gary Cunningham from 
Oklahoma. We've got Casey Hix from Phoenix and Tony Larvie from 
Billings, who was assigned here as drug agent sometime back.
    Also with me are Special Agent In Charge Doug Noseep, who 
is also a Shoshone tribal member. He is our special agent in 
charge out of our Billings district, covers Montana and 
Wyoming, and then Chief Will Matthews. And then as you can see, 
there are a number of law enforcement professionals here as 
well that are very interested in this hearing, and they have to 
excuse themselves, they're working, a good number of them.
    So my perspective is a little bit different maybe than some 
that are here just in Wyoming. Our view of Indian Country is 
it's a national approach. As I travel around, as I'm sure you 
hear when you speak to tribal leaders, they're very concerned 
about drugs and alcohol on the reservation, and I think they're 
more concerned that it seems to be getting worse than better.
    And so what I'd like to do here in the few minutes that I 
have is to speak to you about how we are addressing the problem 
and then some of the solutions, some of the things that we've 
seen that tend to be working well, and we're very excited about 
some other opportunities. And I appreciate you mentioning the 
High Priority Performance Goal Initiative. It was a success, 
and it has given us an opportunity to dive into some other 
things that we think are equally important in ensuring its 
success.
    But in 2009, we were given some additional appropriations 
to move from seven drug agents across the United States to 27, 
so now we have 27 funded positions. When we were funded for 
that, we began to strategically think about where we would 
place those so they could be in high drug activity areas, and 
then we decided to place them on either DEA or FBI or state and 
local task forces to be a force multiplier because it's 
unrealistic to think that 27 could have an impact, but we 
placed them on these task forces, which is phenomenal. And in 
fact, one of the things that we are going to point to is the 
relationship that we have here with DCI and the task forces. 
It's been effective for a long time, and we do want to 
replicate that across the country. We are better when we work 
together as law enforcement, and we know that.
    As we placed agents on these task forces, one of the things 
that we did find is that a lot of times task forces were 
focused on these larger investigations, these drug trafficking 
organizations that would come in and bring the drugs in--very 
important, and those things need to be investigated and 
worked--but the challenge with that is sometimes those are year 
or year and a half long investigations, and at the conclusion 
of that, they will come in, law enforcement will come in and do 
sort of a roundup and take 20 or 30 people and put them through 
the federal system, and that's good. But during that year and a 
half timeframe, we still have drugs come on the reservation. We 
have more folks becoming addicts.
    And so my experience from this--I was the Chief of Police 
at Crow Agency for the BIA, and I would regularly have the 
chairman bring me into his office, and he would point out his 
window, and he said, ``Darren, you know this, I know this and 
everybody in the community knows who's selling these drugs. Why 
aren't we arresting these people?'' And I would have to explain 
to him, ``Chairman, we've got investigations going on. It's 
very difficult for me because of the confidentiality of it to 
explain that, but you have to trust me.'' And that was very 
frustrating to him and frustrating to me as well.
    And so I guess maybe in the last two years, we've changed 
our focus just a little bit. We still strongly believe in the 
task force approach, but we have changed our focus to our 
agents staying on the reservation, working these cases. And we 
know that the large amounts that come into big cities, we don't 
see that necessarily, but the smaller amounts of drugs that we 
do see have a tremendous impact on these smaller communities. 
And so we have really focused our efforts over the last few 
years to look in on the reservation, primarily keep our agents 
there and helping our patrolmen, who are really where we ended 
up initially seeing these drug cases, from car stops or these 
kinds of things.
    So that is the enforcement side of what we're doing, and we 
will keep our foot on the gas pedal there without question, but 
it's not likely--and I think this has been said a lot, so I'm 
not--this isn't mine, but we're not going to arrest our way out 
of the drug problem that we've got.
    So now what we're doing through this initiative that we 
were allowed to do because of the HPPG's success, we were 
approached, and they said, ``Can you duplicate that?'' And we 
said, ``Yes, we can.'' So we were given an opportunity to 
reduce violent crime, and we did it again. They came to us 
again, says, ``Can you do that again?'' We said, ``We believe 
that we can. However, what we would like to do is to focus an 
initiative on recidivism, the number of people that come back 
into our jail.''
    I say this a lot, and people look at me strange until I 
clarify it, but what we have in Indian country is not violent 
criminals first. What we have are alcohol and substance abuse 
issues first who commit violent crimes under the influence. So 
you can't always say it wouldn't happen, but you can say it 
probably wouldn't have happened if it wasn't for alcohol, this 
sexual assault or this aggravated assault.
    So what we did is, working with three pilot program--
tribes, tribal partners, similar to HPPG, we said we would like 
to identify habitual offenders, and rather than strictly--or 
simply incarcerate, we want to pour services into those people, 
rehabilitation treatment, as opposed to just sitting in a jail 
watching TV.
    [The prepared statement of Mr. Cruzan follows:]

   Prepared Statement of Darren Cruzan, Director, Office of Justice 
  Services, Bureau of Indian Affairs, U.S. Department of the Interior
    Good morning Chairman Barrasso, Vice Chairman Tester and members of 
the Committee. I would like to thank you for inviting the Department of 
the Interior (Department) to provide testimony before this Committee at 
this field hearing on the topic of ``Addressing the Harmful Effects of 
Dangerous Drugs in Native Communities.'' My name is Darren Cruzan, and 
I am an enrolled member of the Miami Tribe of Oklahoma. I am currently 
the Director of the Office of Justice Services (OJS) in the Bureau of 
Indian Affairs (BIA) at the Department.
    I would like to introduce several people I have brought with me 
today. Mr. Charles Addington is the Deputy Associate Director of our 
Division of Drug Enforcement, and oversees BIA's national drug 
enforcement efforts. Along with Charlie are the four Supervisory 
Special Agents who manage the BIA's day to day drug operations across 
the country. Mr. Algin Young (Bismarck, ND), Mr. Casey Hix, (Phoenix, 
AZ), Gary Cunningham (Muskogee, OK), and Mr. Tony Larvie (Billings, 
MT). Also with me is Mr. Doug Noseep who is the BIA's Special Agent in 
Charge of our District Five Office located in Billings, MT. Doug is an 
enrolled member of the Eastern Shoshone Tribe, and grew up on the Wind 
River Reservation
    Tribal communities continue to express grave concern regarding the 
high rates of alcohol and drug use in their communities, and are even 
more concerned that it seems to be increasing rather than decreasing. 
Alcohol and drug use is the primary contributing factor to increased 
involvement in the justice system, violence toward women and children, 
and a diminishing sense of overall community safety. In Indian country, 
what we most commonly see are community members who are dependent on 
alcohol or other substances and whose actions are influenced by these 
substances. I firmly believe our focus should be less on simply 
incarcerating people and more on alternatives to incarceration and 
prevention, treatment and recovery opportunities.
    In response to the concerns raised by tribes, as well as law 
enforcement and tribal courts who are encountering unusually high rates 
of alcohol and drug related repeat offenders that are dominating the 
resources of the justice system, the Bureau of Indian Affairs (BIA) 
Office of Justice Services (OJS) has created the Diversion and Re-entry 
Division (DRD) within our Tribal Justice Support Directorate. The 
purpose of creating the DRD is to work toward transforming current 
institutional practices and approaches specific to recidivism into 
solution-focused sentencing Initiatives, which we believe will create 
alternatives to incarceration. The goal is to build on existing 
treatment service continuums in tribal communities by providing access 
to long-term detention-based treatment for all direct-service tribes. 
These initiatives are intended to strengthen the efforts being made by 
tribes and the BIA to expand options and ensure that justice, safety, 
alcohol and substance use disorder interventions, treatment and 
recovery issues remain the topic of consistent focus in our efforts to 
effectively serve the needs of Tribal Nations.
    In 2010, the BIA-OJS began implementing an effort known as the 
``High Priority Performance Goal'' (HPPG) [Safe Indian Communities] 
Initiative to reduce violent crime in Indian country. Based upon an 
analysis report that showed violent crime rates in tribal communities 
above the national average, four reservations were selected as sites 
for implementing the initiative; the Wind River Reservation was one of 
them. The goal of the initiative was to achieve an overall reduction in 
criminal offenses (violent crime) by five percent within a 24-month 
period. I am pleased to report that the current (2014) violent crime 
statistics shows a 22 percent decrease in Part I (violent crimes) below 
the 2007-2009 starting baseline.
    The success of the Violent Crime Reduction Strategy gave us the 
opportunity to implement a new Agency Priority Goal (APG) specific to 
reducing recidivism. Locally, recidivism fueled by substance use 
creates a huge drain on already overtaxed tribal economies. Individuals 
who are repeat offenders, fill court dockets and are more likely to 
require expensive incarceration, and, in many cases, leave behind 
families without an adequate means of support. The Office of Justice 
Services believes that by implementing a comprehensive strategy 
involving better screening, alternative courts, increased treatment 
opportunities, probation programs, and critical interagency and 
intergovernmental partnerships between tribal, state and federal 
stakeholders, we and our tribal partners will succeed in further 
reducing recidivism on these reservations. The recidivism reduction 
initiative (APG) is actively moving forward with three tribes 
participating in building the necessary infrastructure to ensure the 
success of addressing tribal community safety, health and wellness. My 
hope is that the success we are experiencing with this current APG 
initiative will provide an excellent opportunity for replication, and 
be considered for expanding further into Indian Country.
    The specific type of illicit drugs found in Indian Country varies 
by region and is largely influenced by what drugs are readily available 
in larger cities near reservations. While marijuana and methamphetamine 
are the illicit substances we see most widely abused, prescription 
drugs and heroin use have increased in many Tribal communities. It has 
been our experience that most illicit drugs available throughout Indian 
country are not manufactured on the reservations, but rather 
transported into Indian country by independent dealers who travel to 
nearby cities, also known as bordertowns, to purchase the drugs, 
primarily from well-organized Drug Trafficking Organizations (DTO's). 
Mexican DTOs, the principal wholesale suppliers and producers of most 
illicit drugs available in Tribal communities pose the greatest 
``organized'' threat. Mexican DTOs have also played a prominent role in 
producing cannabis at outdoor grow sites in remote locations on 
reservations, particularly in the west coast region.
    The primary illicit drug threats on the Wind River Reservation are 
marijuana, methamphetamine and prescription pill abuse. However, 
alcohol abuse continues to be the significant challenge we see. It has 
been the BIA's experience that the majority of the methamphetamine on 
the Wind River Reservation is coming from neighboring communities that 
have historically been supplied by sources in the Denver, Colorado and 
Salt Lake City, Utah areas.
    The use of illicit drugs can lead to impaired behavior that results 
in violence and other criminal behavior. Drug traffickers often engage 
in violent crimes to facilitate their operations, while persons with 
substance use disorders generally engage in property crimes to support 
their addiction. Most reservations remain economically depressed and 
thus lack the resources necessary to affect the overall drug threat 
they are experiencing. In Fiscal Year (FY) 2014, Indian country law 
enforcement programs (Division of Drug Enforcement (DDE), BIA, and 
Tribal) had an overall increase of approximately 38 percent in drug 
cases worked in Indian country.
    The BIA-OJS supports 190 law enforcement programs, including 25 
BIA-operated and 157 tribally-operated programs. Eighty two percent of 
the total BIA-OJS programs are under contract as authorized under 
Public Law 93-638 or compacted to a Tribe. Many tribes supplement BIA 
funding with money from their treasuries, grants from the Department of 
Justice (DOJ), or other sources. Public safety and justice resources in 
the Indian Affairs budget fund all three fundamental components (law 
enforcement, corrections, and courts) of effective justice systems, and 
fully support the Secretary's commitment to the protection of Indian 
country. The FY 2016 President's Budget request maintains public safety 
resources in key areas, while targeting funding increases to address 
needs identified by tribes on a nationwide basis.
    As Assistant Secretary Kevin Washburn noted in his recent budget 
testimony, the Tiwahe Initiative was launched in FY 2015 to address the 
interrelated problems of poverty, violence, and substance abuse in 
tribal communities by coordinating social service programs, increasing 
family cohesiveness, providing job training to increase work 
opportunities, and providing rehabilitative alternatives to 
incarceration for family members with substance use disorders. It is a 
comprehensive and integrated approach to support community and cultural 
awareness in Indian country. Strengthening public safety components of 
the Tiwahe Initiative in FY 2016, the President has proposed increases 
of $4.0 million for BIA Law Enforcement Special Initiatives and $5.0 
million for tribal courts to seek alternatives to incarceration and 
improve treatment opportunities across Indian country. In addition, the 
2016 budget includes a $1.0 million increase from the FY 2015 
appropriation to provide training to tribes pursuant to new provisions 
of the recent Violence Against Women Act reauthorization. In total, the 
FY 2016 IA budget request provides $364.4 million for the operation of 
public safety programs throughout Indian country, including $9.7 
million to continue drug enforcement efforts. Pursuing our mission 
through collaborations with the tribes and our Federal partners, Indian 
Affairs remains at the core of the President's vision for self-
sustaining, thriving tribal nations.
    Generally, our twenty-eight (28) BIA Drug Agents are assigned to 
federal or state law enforcement Drug Task Forces across the United 
States. These partnerships allow us to employ a force multiplier 
approach to combat illicit drugs in Indian communities. In a few areas, 
Tribal law enforcement has the ability to assign officers to these task 
forces. Teaming up with other law enforcement groups has played a 
significant role in increasing our ability to address this issue. From 
2004 to 2008, the BIA and Wyoming Division of Criminal Investigation 
(DCI) worked together to combat the methamphetamine problem on the Wind 
River Reservation. Law enforcement successfully prosecuted a large 
number of people in federal court for distributing methamphetamine on 
the Wind River Reservation. As a result, for several years the 
methamphetamine problem had been effectively addressed and drug related 
incidents decreased significantly.
    In 2013, issues involving methamphetamine began to reemerge on the 
Wind River Reservation. At the time, the BIA had a vacant drug 
investigator position in Riverton, Wyoming. In September of 2013, the 
BIA hired an Agent whose primary duty is to provide drug enforcement 
for the Wind River, Fort Hall, and Uintah and Ouray Reservations. The 
BIA Agent is currently assigned to the Wyoming DCI taskforce which is 
located in Riverton, Wyoming. The DCI taskforce consists of 
investigators from several area law enforcement agencies including 
Wyoming DCI, FBI, Lander Police Department, and the Fremont County 
Sheriff's Department.
    Several of the taskforce members have been issued Special Law 
Enforcement Commissions (SLECs) by the BIA.
    In FY 2014, the BIA utilized crime statistics submitted by BIA and 
Tribal law enforcement programs to analyze current drug trends 
throughout Indian country. BIA Drug Enforcement then used the 
identified crime trends to focus on 20 specific reservations with high 
drug statistics. The BIA-OJS developed and implemented initial 
deployments of a Mobile Enforcement Team (MET) to these identified 
reservations to specifically address illegal drug activity. The MET 
teams were designed to gather intelligence, develop informants, 
identify criminal drug enterprises operating in Indian Country and 
provide basic and specialized drug training to Tribal officers. This 
effort has already derived very substantial drug related intelligence 
and was successful in the prosecution of drug and alcohol related 
crimes on numerous reservations. BIA Drug Enforcement continues to 
evaluate new drug trends and develop action plans to investigate the 
illegal drug sources and provide training to local law enforcement 
staff.
    Mr. Chairman, thank you for the opportunity to testify on how we 
address the drug problems in Indian country. The Department will 
continue to work closely with you and your staff, tribal leaders, and 
our Federal partners to not only address this issue but all of our 
public safety issues in Indian country, and we appreciate your 
continued commitment to Indian country law enforcement.
    I will be happy to answer any questions you may have.

    The Chairman. Well, I appreciate your testimony. I just 
noticed as you talked, you've gotten actually an award for 
customer service excellence award, award details, you as a hero 
of citizens' centered service, a champion of government 
excellence, and an ambassador of creative partnerships. So I 
appreciate that commitment. It's been a well-deserved award, 
and it seems that every day you're trying to live the life and 
put through your agency the fastest solutions.
    Mr. Cruzan. And I so appreciate that. It was during our 
Crow time. I picked the award up, but I wasn't the one 
responsible for doing it. So I appreciate that.
    The Chairman. Thank you.
    Mr. Cruzan. So just to wrap this up for you. That's what 
we're doing. I'm happy to answer any questions you have about 
that. We're seeing tremendous success. We're almost at the two-
year mark with that, and I think everybody will be happy with 
what we're seeing. We're not waving the victory flag, but we 
are optimistic about what we're seeing. So thank you again.
    The Chairman. Thank you.
    Next is Mr. Andrew Hanson, Special Agent for the Wyoming 
Division of Criminal Investigation. Mr. Hanson, thank you for 
joining us.

STATEMENT OF ANDREW HANSON, SPECIAL AGENT, WYOMING DIVISION OF 
                     CRIMINAL INVESTIGATION

    Mr. Hanson. Chairman Barrasso, it's an honor to be here.
    I'm your boots-on-the-ground guy. I've spent my entire life 
and law enforcement career working on and around native 
communities, specifically the Wind River. In October 2006, I 
was assigned to the DCI Northwest Enforcement Team, and it's 
the DCI Northwest Enforcement Team that conducts the majority 
of the drug investigations on the Wind River Indian 
Reservation.
    The distributors of controlled substances do not recognize 
or respect borders, tribal sovereignty or state and federal 
laws. However, as law enforcement officers, we must, and it is 
because of this the jurisdictional issues arise.
    State agents and law enforcement officers are often unable 
to conduct criminal investigations on the Wind River Indian 
Reservation because they don't possess the proper authority. 
For example, right now on my team, there's only two of us that 
have authority to conduct criminal drug investigations on Wind 
River, and we need to get that changed. We also require any 
federal agents that are assigned to our team to get state 
credentials so they could conduct drug investigations of the 
crime. For example, the BIA drug agent that's on our team now, 
he carries state credentials. We do this because we know that 
drug crimes are not going to stay exclusive to the native 
community. It's a fluid thing. They move on and off of the 
native communities.
    I also want to tell you that through the course of our 
investigations, we've determined that the majority of the 
methamphetamine that's been coming to the reservation is 
generally from Denver, Colorado and Salt Lake City, Utah. We do 
not believe at this time that there's any major drug cartels 
that are currently focused on the reservation, but instead, the 
methamphetamine that ends up on the reservation is typically 
transported here by individuals who typically have a loose 
affiliation with some smaller drug organization.
    And this is a phenomenon that's explained by supply and 
demand. There is sufficient demand on and around the Wind River 
Indian Reservation that supports this market. And despite the 
market's distance from metropolitan areas where the supply 
originates, suppliers nevertheless continue to serve this 
market because they're aware of the issues that we as law 
enforcement have with making an apprehension in these cases. 
These issues include the jurisdictional problems noted above as 
well as the low population density, which we encounter issues 
conducting surveillances, as an example. Even though the 
casinos have brought revenue, growth and jobs to Wind River, 
they are providing a safe haven for those involved in the 
distribution of controlled substances.
    Please make no mistake, prescription controlled substances 
and heroin, as well as marijuana, are having a significant 
impact on our native communities. Methamphetamine, although 
also significant, is not the sole dangerous drug being 
trafficked on the reservation. Prescription controlled 
substances such as methadone, hydrocodone, oxycodone and 
OxyContin are, like heroin, they're all opioids. In our 
communities, we have seen a link between the addiction of these 
prescription controlled substances and heroin abuse as well as 
alcohol abuse. As the price increases for prescription 
controlled substances, the demand for heroin in our Indian 
communities has also been increasing.
    As you mentioned, on April 5, 2006, the former United 
States Attorney for the District of Wyoming and the Governor of 
Wyoming Matthew H. Mead presented this Committee with what he 
called The Wyoming Example. It should be noted that Wyoming's 
approach to drug enforcement is unique and that local, state, 
federal and tribal officials communicate regularly and work 
closely together to conduct investigations into drug crimes. 
The Wyoming Example for combined drug enforcement on the Wind 
River Indian Reservation has proven time and time again to be 
successful. Wyoming DCI in conjunction with BIA, FBI, DEA, and 
our local officials work together and we conduct drug 
investigations, and it is through this type of interagency 
cooperation that we continue to combat the drug problem.
    Challenges surrounding the lack of personnel are certainly 
not unique to us. That's typical for every law enforcement 
agency and every law enforcement organization. Some things we 
can do, besides socioeconomic improvement, to help with the 
drug problem, can be addressed with providing funding for 
additional agents, perhaps a DEA Diversion Task Force to help 
us out occasionally assigned to the Wind River Reservation or 
to Wyoming for that matter. We don't have one assigned to 
Wyoming. Those are some unique problems that we have, and I 
attribute most of them to our distance and our remoteness.
    And it's been a pleasure to speak to you. If you have any 
question, I'd be happy to answer them.
    [The prepared statement of Mr. Hanson follows:]

Prepared Statement of Andrew Hanson, Special Agent, Wyoming Division of 
                         Criminal Investigation
    Chairman Barrasso, Vice Chairman Tester, and Members of the 
Committee, it is truly an honor to appear before you today to discuss 
the ever growing issues surrounding ``Dangerous Drug'' use, sales, and 
distribution in Native Communities, specifically the Wind River Indian 
Reservation. I am Andrew Hanson, a Special Agent for the Wyoming 
Division of Criminal Investigation, Wyoming Attorney General's Office. 
I have spent my entire life and law enforcement career working on or 
near Native Communities, specifically Wind River. I have friends and 
family members that live in or near Native Communities. In the fall of 
2005 I was assigned to the Northwest Enforcement Team as a Task Force 
Officer for a local law enforcement agency. In October 2006, I was 
hired as a full time Special Agent by the Wyoming Division of Criminal 
Investigation and was assigned to the Northwest Enforcement Team. As a 
Special Agent assigned to the Northwest Enforcement Team my duties and 
responsibilities include investigating violations of both State and 
Federal Controlled Substances Acts.
What is the Wyoming Division of Criminal Investigation?
    The Wyoming Division of Criminal Investigation (DCI) provides 
criminal investigative assistance and services throughout the State of 
Wyoming through our five Regional Enforcement Teams. These teams are 
comprised of full time Wyoming Division of Criminal Investigation 
Special Agents, and Task Force Officers who are temporarily assigned to 
the Regional Enforcement Teams from local agencies within the 
boundaries of the Regional Enforcement Teams. A typical Task Force 
Officer assignment to a Regional Enforcement Team is from three to five 
years, though some have been much longer. There are twenty eight 
Special Agents from the Division of Criminal Investigation and thirty 
one Task Force Officers from local law enforcement agencies currently 
working on Regional Enforcement Teams across Wyoming.
    The Division of Criminal Investigation has original jurisdiction to 
conduct investigations involving violations of the Wyoming Controlled 
Substance Act and violations involving organized criminal activity 
across jurisdictional boundaries. The Division of Criminal 
Investigation will also investigate violations of computer crimes and 
suspected violations involving the sexual exploitation of children. 
When other crimes are involved, the Division of Criminal Investigation 
must be requested to investigate by a municipal, county, state or 
federal law enforcement agency, county or district attorney or upon the 
direction of the Governor.
    The Division of Criminal Investigation, Regional Enforcement Team 
whose area of responsibility encompasses the Wind River Indian 
Reservation, is the DCI Northwest Enforcement Team. The DCI Northwest 
Enforcement Team provides services in a five county region in the 
northwest corner of Wyoming that covers 23,507 square miles, with a 
combined population of 94,892 people. The DCI Northwest Enforcement 
Team has two offices, one in Powell and one in Riverton. The team is 
currently comprised of four Division of Criminal Investigation Special 
Agents, four Task Force Officers (with an additional Task Force Officer 
position currently under consideration in the Riverton office), one 
Intelligence Analyst, and one Bureau of Indian Affairs Special Agent 
assigned to the team. There are three special agents and two task force 
officers staffing the Powell office and one special agent, two task 
force officers, and the Bureau of Indian Affairs Special Agent 
currently working in the Riverton office. It is the DCI Northwest 
Enforcement Team, Riverton office that conducts the majority of the 
investigations into drug crimes on the Wind River Indian Reservation.
Scope of the Problem
    Drug enforcement continues to be behind the trends when it comes to 
keeping up with the ever changing skills, tactics and methods that are 
being utilized by those who are distributing controlled substances. 
This is because of the fluid nature of the ``drug business''. This is 
not a problem that is unique to native communities, but rather it holds 
true anywhere that a market, and appetite, exists for illicit 
controlled substances.
    Having worked a significant number of drug cases on and around the 
Wind River Indian Reservation, I have obtained a unique perspective 
that I would like to share with the Committee. Our society is very 
mobile. It is because of this mobility that we must look at the drug 
problem as not being just on the Wind River Indian Reservation, but 
also present in the communities of Lander, Riverton and others nearby. 
The distributors of controlled substances do not recognize or respect 
borders, tribal sovereignty or state and federal laws; however law 
enforcement officers must. And it is because of this, that 
jurisdictional issues arise. State agents and law enforcement officers 
are often unable to conduct criminal investigations on the Wind River 
Indian Reservation because they do not possess proper authority. 
Currently, the Northwest Enforcement Team has only two Agents located 
in Riverton, myself included, who have this authority. However, there 
have been times in the past that every member of the DCI Northwest 
Enforcement Team was in possession of the proper credentials. 
Unfortunately, Agents and Task Force officers sometimes transfer or 
return to their home agencies where they are no longer able to keep up 
with the renewal requirements for the necessary credentials. We also 
require that federal agents with the Bureau of Indian Affairs who are 
on the team to obtain State of Wyoming law enforcement credentials so 
that they have state jurisdiction off of the reservation as well. This 
is because we recognize that it is nearly impossible to conduct a 
criminal drug investigation that remains exclusively in native 
communities.
Recent Trends and Tactics
    Due to combined federal, state and local law enforcement efforts 
from 2004 through 2006, the presence of Methamphetamine had diminished 
substantially for several years. During that time, we would 
occasionally have cases that involved Methamphetamine, however we 
focused most of our investigations primarily upon Marijuana and 
prescription narcotics due to the lack of Methamphetamine trafficking. 
In 2012, Methamphetamine began to return to the communities on and 
around the Wind River Indian Reservation and this time, it was 
available in significantly larger quantities. In order to clandestinely 
gather evidence for drug investigations, we often purchased dangerous 
drugs from distributors. Before the past year, these transactions to 
gather evidence could be accomplished at a cost of no more than five 
thousand dollars. However, during this past year, these transactions 
have escalated in cost to upwards of twenty thousand dollars.
    Through the course of our investigations, we have determined that 
the majority of the Methamphetamine has been coming to the reservation 
from the Denver, Colorado and Salt Lake City, Utah areas. We do not 
believe that any major ``drug cartels'' are currently focused on the 
reservation, but instead, the Methamphetamine that ends up on the 
reservation is transported there by individuals who may or may not have 
loose affiliations with smaller criminal organizations.
    This phenomenon is explained by the forces of supply and demand. 
There is sufficient demand on and around the Wind River Indian 
Reservation to support a market. And despite that market's distance 
from the metropolitan areas where the supply originates, suppliers 
nevertheless serve the market because they are apparently aware of the 
issues that make apprehension difficult. These issues include the 
jurisdictional problems noted above and the low population density 
which sometimes makes surveillance difficult. Even though the casinos 
have brought revenue, growth and jobs to Wind River, they also provide 
a ``safe haven'' for those involved in the distribution of controlled 
substances. This ``safe haven'' is not only used by locals, but often 
times, individuals that travel from other nearby Wyoming communities to 
distribute controlled substances. Please make no mistake, prescription 
controlled substances and Heroin, as well as Marijuana, are having a 
significant impact on native communities. Methamphetamine, although 
also significant, is not the sole dangerous drugs being trafficked on 
the reservation.
    In June of 2008, three young women lost their lives to overdoses. 
They had been given a prescription controlled substance called 
Methadone, which is a very powerful narcotic pain killer and is also 
prescribed on occasion for Heroin dependency. In this case, two of the 
young women crushed the Methadone and snorted it, and the other 
ingested the drug orally. According to public reports of the incident, 
nearly twenty four hours passed before anyone noticed or reported the 
deaths.
    Prescription controlled substances such as Methadone, Hydrocodone, 
Oxycodone and OxyContin are, like Heroin, opioids. In our communities 
we have seen a link between the addiction to these prescription 
controlled substances and Heroin abuse as well as alcohol abuse. As the 
price increases for prescription controlled substances, the demand for 
Heroin has been increasing. According to the National Institute on Drug 
Abuse, deaths due to prescription controlled substance abuse in the 
Denver region rose from approximately five to eleven persons per one 
hundred thousand in 2012. According to the Fremont County Coroner's 
office, opioids are the most common drug found in drug related deaths 
in Fremont County.
``The Wyoming Example''
    On April 5, 2006, former United States Attorney for the District of 
Wyoming and the current Governor of Wyoming, Matthew H. Mead, presented 
this committee with what he called ``The Wyoming Example''. In Governor 
Mead's testimony he provided details on two successful investigations 
that highlighted the partnership between state, federal and tribal 
agencies in Wyoming. It should be noted that Wyoming's approach to drug 
enforcement is unique in that local, state, federal and tribal 
officials communicate regularly and work closely together to conduct 
investigations into drug crimes. The ``The Wyoming Example'' for 
combined drug enforcement on the Wind River Indian Reservation has 
proven time and time again to be successful. The Wyoming Division of 
Criminal Investigation, in conjunction with the Bureau of Indian 
Affairs, the Federal Bureau of Investigation, the Drug Enforcement 
Administration and local law enforcement agencies still continue to 
work together and conduct drug investigations. It is only through this 
type of inter-agency cooperation that we can continue to combat the 
drug problem successfully.
    Recently, Eastern Shoshone Tribal Officials have approached the 
Wyoming Division of Criminal Investigation for the purpose of adding an 
additional Task Force Officer to the DCI Northwest Enforcement Team. 
Should this happen, the State of Wyoming would likely fund a portion of 
this position along with the Eastern Shoshone Tribe. It is our 
understanding that this will be the first time a tribal officer would 
be a part of a state sponsored drug enforcement task force. This 
officer will have law enforcement authority statewide, through the task 
force. This clearly demonstrates the level of commitment that Wyoming 
and the Eastern Shoshone Tribe have to continued support of ``The 
Wyoming Example'' and drug enforcement in our communities.
Challenges Faced by Law Enforcement
    During the day to day drug enforcement operations on the Wind River 
Indian Reservation, law enforcement is faced with many challenges. Some 
of these challenges include lack of personnel and jurisdictional 
issues.
    The challenges surrounding the lack of personnel are certainly not 
unique to law enforcement in native communities. Even though the 
majority of the drug investigations that occur on the Wind River Indian 
Reservation are led by the Wyoming Division of Criminal Investigation, 
that agency has other areas of responsibility throughout the state. The 
Bureau of Indian Affairs Agent that is assigned to the Wind River 
Indian Reservation also has other areas of responsibility in Idaho and 
Utah native communities. This means that even though we do as much 
enforcement activity as possible on the Wind River Indian Reservation 
as we can, it is by no means a ``full time'' endeavor.
    Often times, when an investigation requires additional personnel 
for officer safety reasons, we are required to wait until the 
additional personnel can be brought into this area to assist the agents 
that are working the case. This can be problematic due to the dynamic 
and fluid nature of a drug transaction. Unfortunately, often times we 
are unable to have personnel in place and our opportunity to conduct 
the transaction is lost. As is the nature of any for-profit business, 
the first person through the door with the money gets to purchase the 
product. If it is not law enforcement clandestinely making that 
purchase, then evidence is lost. The particular drugs are, of course, 
consumed by users.
    The lack of available personnel is exacerbated by the fact that we 
simply do not have enough law enforcement agents who have 
jurisdictional authority to engage in enforcement actions and conduct 
criminal investigations in native communities. In order for a state law 
enforcement officer or agent to work cases in Native Communities they 
must obtain a Special Law Enforcement Commission (SLEC) through the 
Bureau of Indian Affairs. This process requires that the officer or 
agent attend a three day training conducted by the United States 
Attorney's Office in conjunction with the Bureau of Indian Affairs. At 
the conclusion of the training, the officer or agent then must pass an 
examination. After successfully passing the test, the officer or agent 
must then undergo an adjudicated background check. This process often 
takes several months to complete. Last year we had a task force officer 
attend the SLEC training in Idaho. As of today, his background is not 
complete, and he does not have authority on the Wind River Indian 
Reservation. Additionally, the officer has since left the Northwest 
Enforcement Team and is working on another team, in another part of 
Wyoming and no longer has Indian Country responsibility.
    When a new task force officer is assigned to the Northwest 
Enforcement Team he or she must wait until the first available SLEC 
class is held. Again, this can often be months or years before the task 
force officer can attend the class because the classes are simply not 
held very often. Keep in mind, the typical task force officer 
assignment is from three to five years. The SLEC process can 
effectively hamper a task force officer's effectiveness on the team for 
a year or more.
What Can Be Done to Help Eliminate the Drug Problem on the Wind River 
        Indian Reservation?
    Besides demand reduction through socio-economic improvements, the 
drug problem on the Wind River Indian Reservation can be addressed with 
additional success through supply interdiction by law enforcement 
agents. Additional agents, tasked specifically with drug enforcement 
duties on the Wind River Indian Reservation, would help. One way to 
obtain such additional agents would be through funding to allow the 
Drug Enforcement Administration (DEA) to establish resident agents 
assigned to the Wind River Indian Reservation area. In lieu of, or 
addition to, resident agents, a DEA Tactical Diversion Unit to help 
combat prescription medication crimes could periodically be assigned to 
the reservation. The Federal Bureau of Investigation has Resident 
Agents that are assigned to work cases on the Wind River Indian 
Reservation. But their primary focus is violent crimes. The nearest 
Drug Enforcement Administration Post is over one hundred twenty miles 
away from the Wind River Indian Reservation and is manned by only two 
resident Agents. Unfortunately, these two DEA Agents are spread thin 
and do not have the time or the resources to work in native communities 
full time.
    As I stated earlier, the agents and task force officers of the 
Division of Criminal Investigation, would be more effective if they all 
had the necessary jurisdictional authority to fully participate on 
reservation operations. Improvements in credentialing could be made a 
cost-effective priority.
Conclusion
    It has truly been my pleasure, and privilege to speak before you 
today.

    The Chairman. We'll sure do that. Thank you very much. 
Thank you for your service to the people of Wyoming and people 
of the United States. Thanks.
    Our next witness, Barbra Roach, is a Special Agent in 
Charge for the Denver Field Division of the U.S. Drug 
Enforcement Administration, the Department of Justice and from 
Denver. Thanks so much for joining us today.

  STATEMENT OF BARBRA ROACH, SPECIAL AGENT IN CHARGE, DENVER 
             FIELD DIVISION, U.S. DRUG ENFORCEMENT 
           ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE

    Ms. Roach. Thank you for the opportunity to come and speak 
today.
    Basically I want to talk about the drug threat of what 
we're seeing in this region. The most common drugs illegally 
trafficked in and around the community of Wind River Indian 
Reservation are marijuana, pharmaceuticals and methamphetamine.
    Marijuana is basically the most commonly abused illicit 
drug, and it's been challenging to address, especially since 
Colorado legalized marijuana both medically and recreationally 
under our state law there. DEA has observed the availability 
has become more widespread throughout the region. DEA is aware 
that Wyoming residents often will come in to Colorado to 
purchase marijuana either in--usually in user amounts. 
Sometimes it's smaller amounts and take it back with them.
    The illicit drugs that are also abused are pharmaceuticals. 
These products are a significant concern here in Wind River. As 
with marijuana, the prescription drugs are very popular with 
our youth, and they doctor shop and they go to pharmacies 
outside the reservation to get their pills, and then they 
resell them.
    Methamphetamine trafficking and abuse also remains a 
challenge for us in this area. Most of the methamphetamine 
that's distributed throughout this region is almost always 
going to be Mexican based. Our methamphetamine either comes 
through Salt Lake or Denver but ultimately is from Mexico.
    So DEA feels that the most important thing we can do is 
work cooperatively with our law enforcement partners, and we've 
been very successful in doing that over the last several years. 
We had the one phenomenal case, but we have continued that 
model since 2010 to current.
    We had in 2010 a methamphetamine/cocaine trafficking 
organization that was supplying this area out of Phoenix and 
Salt Lake. That's where they were based. That one, we used 
every resource in our ability, from the legal wiretaps, the 
undercover purchases, and in the one in 2010, 58 arrests. We 
got 10 pounds of methamphetamine and assets.
    We also did this in 2011. Again, it was methamphetamine and 
cocaine coming from Mexico to Wyoming. That one we were able to 
successfully dismantle the organization, again using all 
resources at our disposal, and we arrested 30 individuals out 
of that organization. We did it again in--you know, several 
others, in 2011, 2012. Again, it's almost always 
methamphetamine based. And then in 2013, we had another one 
that we were working on, and there's one that's ongoing as we 
speak. And we always dismantle the entire organization and 
basically take out its roots.
    In 2011, our diversion squad came up and met with the 
Indian Health Services that--they basically service this area 
providing health care for the residents. And, you know, we came 
up with some basic on-site inspections, and we provided 
recommendations to strengthen the compliance. And as of right 
now, that's still been successful, and the compliance has still 
been very strong.
    Looking ahead, DEA wants to establish a Tactical Diversion 
Squad here in Wyoming. We have put this forward. This is 
something that appears to be wanted by all the state and local, 
tribal law enforcement. This would expand our TDS program into 
this state.
    And basically what a Tactical Diversion Squad does is it 
uses all of the tools that are available to it to attack the 
diversion of pharmaceutical drugs. The TDS incorporates what we 
do with law enforcement in attacking the problem, the skills 
that the agents would bring and task force officers, diversion 
investigators, and they'd use that as their focal point to take 
out any kind of issues we have as far as the diversion.
    So, bottom line, we want to continue to work together with 
all of our partners, and this Tactical Diversion Squad will be 
on our budget in 2016.
    The Chairman. Thank you so much, and thank you for your 
service as special agent in Florida, California, Texas, 
Philadelphia, and now in this situation, you are in charge of 
the largest land mass in the United States for the--which it is 
your current division out of Denver. So thank you very much.
    Ms. Roach. Thank you.
    [The prepared statement of Ms. Roach follows:]

  Prepared Statement of Barbra Roach, Special Agent in Charge, Denver 
 Field Division, U.S. Drug Enforcement Administration, U.S. Department 
                               of Justice
    Distinguished members of the Committee, on the behalf of 
Administrator Leonhart, I appreciate your invitation to submit 
testimony today regarding the drug trafficking threats to the Wind 
River Indian Reservation along with efforts to assist our federal, 
state, local and tribal partners.
Introduction
    The mission of the U.S. Drug Enforcement Administration (DEA) is to 
enforce the controlled substances laws and regulations of the United 
States and to bring to the criminal and civil justice system, those 
organizations and principal members of organizations, involved in the 
growing, manufacture, or distribution of controlled substances 
appearing in, or destined for, illicit traffic in the United States.
    DEA currently has over 307 offices around the world, including 221 
domestic offices and 86 foreign offices. Wherever DEA operates, we 
build relationships with other law enforcement agencies, including at 
the federal, state, local, and tribal level. If we are to be successful 
in accomplishing our mission, it is essential that we work together, 
share information and coordinate available resources to ensure that 
they are deployed in the most effective manner possible.
    Within the Denver Field Division, we have over 200 employees 
comprised of Special Agents, Diversion Investigators, Task Force 
Officers, and individuals assigned to Administrative Support. These 
personnel are distributed between the Division Office in Denver, a 
District Office in Salt Lake City, four Resident Offices, and five 
Posts of Duty. This division covers 433,868 square miles consisting of 
the states of Colorado, Montana, Utah, and Wyoming. In Wyoming, DEA 
specifically has one Resident Office in Cheyenne, one Post of Duty in 
Casper and is staffed with 23 individuals which cover the entire state, 
which includes the Wind River Indian Reservation.
Wind River Reservation Drug Threat
    Currently, the most common drugs illegally trafficked in and around 
the communities of the Wind River Indian Reservation are marijuana, 
pharmaceuticals, and methamphetamine.
    Marijuana is both the most commonly abused illegal drug as well as 
the most challenging to address. Since the State of Colorado legalized 
marijuana for medical and recreational use under state law, DEA has 
observed that its availability has become more wide spread throughout 
the region. DEA is aware of instances of Wyoming residents traveling to 
Colorado to obtain user amounts of marijuana. The illicit use and abuse 
of pharmaceutical products is also of significant concern for the Wind 
River area. As with marijuana, prescription pills are also popular with 
youth. Through doctor shopping and using pharmacies outside of the 
reservation area, it is not uncommon for individuals to obtain hundreds 
of pills at a time for illicit re-sale.
    Methamphetamine trafficking and abuse also remain a significant 
challenge for the Wind River area as well as Wyoming in general. Most 
of the methamphetamine distributed throughout the Wind River 
Reservation and surrounding area is of Mexican origin. Methamphetamine 
distributors on the reservation routinely travel to Lander, Casper, 
Riverton, Rock Springs, Salt Lake City, and even as far as Denver to 
obtain ounce or multi-ounce quantities.
DEA Response
    Working in close cooperation with our law enforcement partners, 
many of whom are represented at this table, DEA's Denver Field Division 
has conducted numerous investigations which have positively impacted 
the Wind River Reservation. Some of the more notable efforts are the 
following:
    In 2010, DEA Casper, Wyoming's Department of Criminal 
Investigations (DCI), the Bureau of Indian Affairs (BIA), the 
Department of Homeland Security (DHS), the State of Wyoming's Office of 
the Attorney General (OAG), and the U.S. Attorney's Office (USAO) in 
Wyoming conducted an investigation into a methamphetamine-cocaine drug 
trafficking organization supplying Phoenix and Salt Lake City. The drug 
trafficking organization was identified as distributing narcotics on 
the Wind River Reservation. Thirteen judicially authorized telephonic 
intercepts were conducted during the investigation which resulted in 58 
arrests, the seizure of ten pounds of methamphetamine, and $190,000 of 
trafficker assets.
    In 2011, DEA Casper, working in conjunction with DCI, BIA, Federal 
Bureau of Investigation (FBI), the United States Marshals Service 
(USMS), Wyoming OAG and the Wyoming USAO, investigated the illicit 
distribution of cocaine and methamphetamine being sent to Wyoming from 
Mexico. The targets of this investigation were identified as sources of 
supply of narcotics to several individuals in and around the Wind River 
Reservation. DEA investigators along with our law enforcement partners 
conducted seven judicially approved telephonic intercepts and made 
numerous undercover purchases of narcotics from the primary sources of 
supply. This investigation resulted in the arrests of 30 members of the 
drug trafficking organization, including the sources of supply along 
with the seizure of methamphetamine, cocaine, and related assets.
    In 2011, a Mexican-supplied drug trafficking organization based in 
the State of Washington was identified as distributing methamphetamine 
and marijuana on the Wind River Reservation. DEA's Casper office, 
working in coordination with DCI, BIA, FBI, Wyoming OAG and the Wyoming 
USAO conducted 16 judicially authorized telephonic intercepts against 
the leadership of this criminal organization. The investigation 
culminated with 56 arrests, the seizure of five pounds of 
methamphetamine and $60,000 in assets.
    In 2011, DEA Denver met with the Indian Health Service clinics 
located on reservation at Fort Washakie and Arapahoe, both of which 
provide healthcare services to residents of Wind River. DEA Diversion 
Investigators also met retail pharmacies and conducted several on-site 
inspections which resulted in recommendations to strengthen regulatory 
compliance. Additionally, investigators met with off-reservation law 
enforcement to coordinate efforts and raise drug diversion awareness.
    From 2011 to 2012, DEA Casper worked alongside DCI, BIA, FBI, 
Wyoming OAG and Wyoming USAO to target and dismantle a methamphetamine 
distribution network being supplied by individuals in Nevada and 
California with ties to the Wind River Reservation. In this instance, 
investigators utilized an array of investigative techniques to include 
telephonic intercepts, undercover agents and physical surveillance to 
gather evidence for prosecution. As a result, 41 members of the 
organization were arrested.
    In 2013, DEA agents from Cheyenne and Casper, along with 
investigators from DCI, BIA, FBI, Wyoming OAG and Wyoming USAO 
conducted an investigation of a Mexican drug trafficking organization 
based in Lander. This organization was responsible for distributing 
narcotics statewide, to include the Wind River Reservation. During 
extensive use of judicially authorized telephonic intercepts, the 
highest levels of the organization in Wyoming were identified for 
prosecution. At the conclusion of this investigation the organization 
was fully dismantled, ten subjects were arrested, significant amounts 
of methamphetamine and more than $100,000 in assets were seized.
    Looking ahead, the Denver Field Division has met with the Wyoming 
U.S. Attorney and Director of the DCI to discuss the establishment a 
Tactical Diversion Squad (TDS) in Wyoming. As a result of these 
meetings, DEA is considering an expansion of its TDS program into 
Wyoming. Tactical Diversion Squads are DEA's primary tool to 
investigate the diversion of pharmaceutical drugs containing controlled 
substances. A TDS incorporates the enforcement, investigative, and 
regulatory skill sets of DEA Special Agents, Diversion Investigators, 
as well as creates a focal point for partnerships with other Federal 
law enforcement, and state and local Task Force Officers. The 
establishment of a TDS based in Wyoming would increase DEA's capability 
to conduct criminal investigations and could lead to more prosecutions 
of violators throughout Wyoming, to include the Wind River Reservation.
Conclusion
    In conclusion, DEA will continue to investigate the most 
significant drug trafficking organizations affecting the state. These 
investigations will continue to identify-disrupt and dismantle foreign, 
regional, and local networks most responsible for illicit distribution 
of controlled substances, to include the area in and around the Wind 
River Reservation. DEA has an outstanding working relationship with its 
federal, state, local and tribal partners in Wyoming and will continue 
to work in partnership with them.
    Thank you for the opportunity to testify here today before the 
Committee. I look forward to answering any questions.

    The Chairman. Next we'll hear from Thomas Ravenelle.

STATEMENT OF THOMAS RAVENELLE, SPECIAL AGENT IN CHARGE, DENVER 
                FIELD OFFICE, FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Ravenelle. Good morning, Chairman Barrasso. Thank you 
for the opportunity to appear before you today and discuss the 
impact of drugs and violent crime on native communities.
    High rates of violent crime on Indian reservations continue 
to drive the Indian Country threats as we see them. Uniform 
Crime Report 2012 data indicates violent crime rates on certain 
Indian reservations are up to 15 times higher than the national 
average. The average violent crime rate of Indian Country as a 
whole is almost three times higher than the national average, 
which is driven largely by aggravated assaults.
    The FBI has played a role in ensuring safety and security 
in Indian Country since our establishment in 1908. With agents 
here, victim specialists assigned in Lander and our resident 
agency, we work in concert with the Bureau of Indian Affairs. 
Our local partners are the Wyoming Division of Criminal 
Investigation, the DEA and the Wyoming United States Attorney's 
Office. The Lander RA currently has a pending caseload of 
approximately 150 cases related to the Wind River Indian 
Reservation. Without question, the most prevalent substance 
associated with these crimes is alcohol.
    Drug activity which has been identified in the Wind River 
Reservation includes the distribution of marijuana, diverted 
prescription drugs and meth. Currently, drug-related issues on 
the reservation are handled primarily by the Wyoming DCI Task 
Force and the DEA. The DCI Task Force also includes FBI and the 
BIA. Through daily interaction and consistent teamwork, the 
FBI, DCI and DEA are strong and collaborative partners.
    Denver FBI has five agents assigned to the Lander RA full 
time, and all work Indian County almost exclusively. By 
comparison--those are all violent crime bodies, and by 
comparison in the metropolitan Denver area, we have four people 
working violent crimes. We have the greatest share of partners 
with our local agencies there, so that helps out, but we are 
taking this very seriously. Again, almost 150 cases of a 
violent crime nature. Almost all of our cases are violent 
crimes.
    Current case load in 2015, we've had 44 serious assaults, 
33 sexual abuse of a child case, 20 rapes, 12 assaults on a 
federal officer and 11 death investigations, and that's only 
literally half the year since the fiscal year started.
    The FBI also participates in the Northwest Enforcement 
Team, with one part-time agent. The agent was full time for 
approximately two years but had to be scaled back to address 
the serious violent crimes.
    Just as a point of reference, the Fremont County Coroner's 
Office reported there's been 229 non-natural deaths in the 
county since the start of 2011. Of those, 152 involved alcohol 
or drug substances in the system when the autopsies were 
conducted. That's not to say that that was the cause of death, 
but it was in the system. So 71 of those 152 involved drug use 
only, and of that, 50 involved prescription pills and 25 
involved marijuana and three involved meth.
    One of my seniors agents with me today, Paul Swenson behind 
me, who's been in Lander 15 years, in the last five years, he's 
only aware of one death that was caused as a result of a meth 
overdose in this area. However, there's no way to tell what 
drug use, meth use, has done to cause these violent crimes 
which may have caused other deaths.
    During the summer of 2014, you may be aware there was a 
lawsuit to pay off the tribal members. Each Eastern Shoshone 
member got approximately 13,000, and each Northern Arapaho 
tribal member received approximately 8,000. Our agents seemed 
to perceive a brief uptick in the meth use at that time, but 
except for what's going on in the DCI Task Force, we haven't 
seen it otherwise in our cases. We see--during search warrants 
on violent crimes, we see the packaging of small amounts of 
meth, but we haven't seen ounce quantities ourselves during our 
work on our violent crime cases.
    I will say in 2010, the number of BIA officers surged from 
five to more than 30, and my agents believe it led to a rise in 
arrests, which some people say the crime problem went up, but I 
think you're going to see it's the amount of law enforcement 
officers. I think if the staffing could remain steady, it would 
have a very positive impact on crime reduction on the Wind 
River Reservation. I agree, though, we can't arrest our way out 
of it. There needs to be social programs as well.
    Chairman Barrasso, I thank you for this opportunity to 
testify concerning some of the challenges which face our Native 
American communities. The FBI takes its responsibility in 
Indian Country very seriously. We appreciate your interest in 
these matters. I'm happy to answer any questions you have.
    [The prepared statement of Mr. Ravenelle follows:]

Prepared Statement of Thomas Ravenelle, Special Agent In Charge, Denver 
             Field Office, Federal Bureau of Investigation
    Good morning Chairman Barrasso. Thank you for the opportunity to 
appear before you today to discuss the impact of drugs and violent 
crime on native communities.
    High rates of violent crime on Indian Reservations continue to 
drive the Indian Country (IC) threat. Uniform Crime Report (UCR) 2012 
data indicates violent crime rates on certain Indian Reservations are 
up to 15 times higher than the national average. The average violent 
crime rate of Indian Country as a whole is almost three times higher 
than the national average, which is driven largely by aggravated 
assaults.
    The FBI has played a role in ensuring safety and security in Indian 
Country since our establishment in 1908. Within the FBI's Criminal 
Investigative Division, the Indian Country Crimes Unit (ICCU) is 
responsible for developing and implementing strategies to address the 
most egregious crime problems upon tribal reservations. ICCU supports 
the joint investigative efforts of the Bureau of Indian Affairs Office 
of Justice Services (BIA OJS) tribal law enforcement and Safe Trails 
Task Forces (STTFs). ICCU manages IC personnel resources, procures 
services, funds specialized equipment to enhance FBI investigations, 
and acts as a liaison with the Department of Justice Office of Tribal 
Justice (DOJ OTJ), BIA OJS, the Executive Office for the United States 
Attorneys (EOUSA), and FBI Office of Victim Assistance (OVA). ICCU also 
provides high quality training to Indian County law enforcement to 
ensure investigations are conducted in a consistent manner. Currently, 
the FBI has investigative responsibility for approximately 200 Indian 
Reservations, and investigative priorities include Death 
Investigations, Child Sexual/Physical Abuse, Rape, Assaults Resulting 
in Serious Bodily Injury, Domestic Violence, as well as Gang and 
Criminal Enterprise Investigations.
    As you know, the Wind River Reservation is located in western 
Wyoming near Lander. The reservation is home to over 3,900 Eastern 
Shoshone and 8,600 Northern Arapahoe enrolled tribal members, and 
contains approximately 2,268,000 acres of land within its exterior 
boundary.
    With Agents and Victim Specialists assigned to our Resident Agency 
(RA) in Lander, Wyoming, the FBI works in concert with the Bureau of 
Indian Affairs (BIA), our local partners, the Wyoming Division of 
Criminal Investigation (DCI), the Drug Enforcement Administration 
(DEA), and the Wyoming United States Attorney's Office. The Lander RA 
currently has a pending caseload of approximately 150 cases related to 
the Wind River Reservation. Without question, the most prevalent 
substance associated with these crimes is alcohol.
    Gang affiliation in Indian Country is often described as an 
``imitation'' of urban street gangs, and is usually determined by 
neighborhood or family connections. Individuals who reside on the Wind 
River Reservation have claimed tenuous affiliations with a small number 
of gangs. The gangs lack hierarchal structures and are loosely 
organized. Gang members may claim affiliation with multiple, even 
competing gangs and change membership frequently. Violent or major 
crimes committed in furtherance of gang objectives are rare.
    Drug activity which has been identified on the Wind River 
Reservation includes the distribution of marijuana, diverted 
prescription drugs, and methamphetamine. Currently, drugrelated issues 
on the reservation are handled primarily by the Wyoming DCI Task Force 
and the DEA. The DCI Task Force also includes FBI and the BIA. Through 
daily interaction and consistent teamwork, the FBI, DCI, and DEA are 
strong and collaborative partners.
    There has been mention of several partnerships when it comes to 
Indian Country and there are two which I would like to highlight. 
First, it is important to recognize the FBI's OVA. The OVA plays a 
vital role in Indian Country investigations and has victim specialists 
dedicated specifically to Indian Country. They represent approximately 
one-third of the entire FBI victim specialist workforce. These victim 
specialists are heavily involved in our cases, assisting victims 
throughout the process.
    Another important partnership we have is with the people who live 
and work on or near the reservation. Federal, State, and Local law 
enforcement officials rely on ongoing relationships with local 
communities to help identify and address problems before they become 
more serious issues. It is important that these partnerships and local 
trust are formed long before a crime is committed and must be preserved 
long after.
    Chairman Barrasso, I thank you for this opportunity to testify 
concerning some of the challenges which face our Native American 
Communities. The FBI takes its responsibility in Indian Country very 
seriously. We appreciate your interest in these matters. I am happy to 
answer any questions you might have.

    The Chairman. And I appreciate your testimony as well as 
your service, starting 30 years ago, with the SWAT team, in 
this current capacity, and as a supervisor special agent to 
oversee domestic and international terrorism squads, so you've 
seen it all, been there. I appreciate your efforts here, too. 
Thank you.
    Just a couple of questions. We can start with Mr. Crofts. 
You said the number one issue is alcohol, and a lot has to do 
with preventing someone on their release from prison to end up 
back there, with recidivism being a big concern. You talk about 
comprehensive rehab treatment as part of the prevention 
component of that. Would you like to just add a little bit more 
to that in case we can actually specifically do better here?
    Mr. Crofts. Well, Mr. Chairman, it's clear that Indian 
Country everywhere, especially in the west, has suffered from 
alcohol on the Indian reservations. And I certainly didn't mean 
to say that we don't have other controlled substance problems. 
I think part of it is economic. You know, meth costs more than 
alcohol, and people can always scrape together a few dollars 
and make a run to Lander or Riverton to buy alcohol, so that's 
predominantly what we see.
    I have been frustrated for the 25 years that I've been 
working here that we just can't find inpatient, comprehensive, 
long-term treatment programs available anywhere in Wyoming or 
on this reservation. We can't find money to pay for them. We 
can't find a bed. I certainly don't mean to tell the Indian 
Health Service what to do, but it seems to me that it's part of 
our responsibility, all of us, to provide good health care for 
the Indian people. We need to address that component of it, and 
I would just love to see a facility that people could walk in 
when they needed help, but we could also direct people into 
from the criminal justice system.
    The Chairman. We do have the acting director of the Indian 
Health Services here who's going to testify in the next panel. 
I know he's been listening very attentively to what you had to 
say.
    And then the other question is what you suggested isn't 
just unique to here. We're talking Indian reservations around 
the country, similar problems; could that model be used 
successfully to help reduce violent crime in other locations?
    Mr. Crofts. Absolutely, yes, sir.
    The Chairman. Well, I appreciate that answer.
    Mr. Cruzan, your written testimony that states in 2013, 
issues involving methamphetamine began to reemerge in Indian 
Country. Reemergence has occurred despite the increase in law 
enforcement. What do you think led to this reemergence of 
problems involving methamphetamine, and what are some successes 
that you've seen, too?
    Mr. Cruzan. Well, you know, Senator, I don't know what led 
to the--one of the things, and it was brought up by one of the 
other panelists here, is that what we did see during our High 
Priority Performance Goal initiative was more police officers 
equaled a greater sense of security by the community, and 
that's right. We saw a tremendous increase in violent crime at 
the 12-month mark--it was a 24 month initiative--and it was 
concerning, but what we realized is we weren't seeing more 
crime committed. There was more crime reported.
    And quite frankly, Senator, one of the challenges that we 
do have is keeping funded vacancies filled. We are working with 
our human resources on some very creative ways to hire, but it 
continues to be a struggle. So I think it probably is in some 
degree, probably a great degree, related to the visibility of 
law enforcement being able to address it both from our uniform 
capacity and from our drug investigations.
    The Chairman. So the money is there. It's in terms of 
finding individuals who are qualified and capable and ready to 
live in the location where you necessarily need them. That's 
one of the challenges because there are open spots right now?
    Mr. Cruzan. That's correct, Senator.
    The Chairman. Mr. Hanson, you talked about The Wyoming 
Example as a successful model for the cooperation of the 
different agencies. You also indicated this approach is 
somewhat unique. I wonder how this type of approach could be 
expanded to other jurisdictions because it's important from the 
Committee's standpoint that we can find the best models that 
work, best practices, and then try to use them elsewhere.
    Mr. Hanson. Quite frankly, from my perspective, the reason 
it works so well is our administration is behind us a hundred 
percent. DEA's administration is behind them a hundred percent, 
BIA, FBI. It goes on.
    I think from talking to agents and drug investigators 
across the country about what we do and how we do it, the 
number one thing I hear is, ``Our bosses wouldn't go for 
that.'' I don't know the answer. I don't know why they won't go 
for it. But I think if it comes from the top down, if people 
are directed that this is a good example, this will work and 
this is the type of interagency cooperation, it happens.
    I know that the federal agencies I mentioned, of course, 
they're behind the task force. I think when it gets to a lower 
local level--and again, I told you I'm your boots-on-the-ground 
guy. I'm going to give you my perspective from that. Sometimes 
I think egos get in the way, and this becomes a territorial 
thing. That's not going to work. That's not going to solve the 
problem. And I think administrators need to get through that 
and develop--and then work together as well as we have.
    The Chairman. Ms. Roach, in terms of cooperation, you're in 
charge of the largest land mass in the United States in terms 
of what you're doing, so it's working here. Hopefully it can 
work in other Indian communities as well, as you have 
oversight.
    I want to talk a little bit about your written testimony 
that the DEA is considering expanding the Tactical Diversion 
Squad in Wyoming. You know, these squads are the primary tool 
for investigating the diversion of pharmaceutical drugs. How 
can these squads be expanded in other parts of the Indian 
Country?
    Ms. Roach. They've been expanding throughout the United 
States. We just got one last year in Missoula, Montana. I think 
that in the end, it would be nice to have at least one per 
state. When you live in areas--I have a four-state region. When 
you have an area that is so large in land mass or weather can 
permit a group from going and maybe responding to the other 
side of their state, that's when you have to make an exception 
and have one of these squads. Maybe you could have two in one 
state, you know. And like in the case with Wyoming, we don't 
have one at all. It's an easy argument for us to make. And, you 
know, to be honest, we have the buy in from everybody at this 
table.
    The Chairman. It sounds like you do. I have a sense that 
there's great cooperation here.
    Mr. Ravenelle, your written testimony as opposed to your 
oral testimony, you talked about some Indian reservations up to 
15 times higher than the national average in terms of violent 
crime. We've heard some other witnesses on this panel indicate 
alcohol, substance abuse, significant contributing factors in 
the crime. Do you have some specific additional recommendations 
on how we could be doing better at reducing the crime rate?
    Mr. Ravenelle. That's a tough one. I mean it's a whole-
community approach, I think. We're not in the business of 
dealing with people with alcohol abuse and trying to get them 
off of alcohol abuse, but there needs to be a partnership where 
we work collaboratively with the health people, the counselor 
people. To be honest, some people--I mean people have to want 
to get help, too, and there has to be--somehow create a culture 
of people wanting to get help because if they don't want help, 
anything you do for them is probably not going to work.
    The Chairman. All right. I think we're going to try to 
address that in the next panel. So let me just, one, thank each 
of you for being here. Thank you for your commitment and your 
efforts to deal with a very important problem facing our 
country. As Chairman of this Committee, I'm especially 
appreciative of the ideas that you come up with that we can use 
certainly here in Wyoming but also across the United States. So 
you're welcome to stay for the next panel.
    I'm going to ask our next panelists to come to the table, 
and they are folks that have significant information to share 
with the Committee about things that may be working and 
suggestions on how to deal with those.
    We have the Honorable Darwin St. Clair, who is a council 
member of the Shoshone Tribe of the Wind River Reservation here 
in Fort Washakie, Wyoming. We have Mr. Robert McSwain, who is 
the Acting Director of the Indian Health Service, Department of 
Health and Human Services, here from Washington, DC. We have 
Ms. Sunny Goggles who's here, who is the Director of the White 
Buffalo Recovery Program for the Arapaho Tribe of the Wind 
River Reservation. And, also, Mr. Claullen Tillman, who is a 
young man, member of the Eastern Shoshone Tribe from Fort 
Washakie, and he and I had a chance to meet not that long ago 
in Washington, DC. He is the Rocky Mountain representative for 
the United National Indian Tribal Youth.
    So I'm appreciative of each of you being here as the second 
panel today, and as I mentioned to the first panel, your full 
written testimony, which you've already submitted, will be made 
part of the official hearing record, so I ask that you please 
try to keep your statements to five minutes so that there's 
still time for questions at the end of the testimony. I'll look 
forward to hearing the testimony from each of you.
    So, Chairman St. Clair, at any time that you're ready, we'd 
appreciate hearing from you. You may want to pull that 
microphone in a little bit closer. Thank you, Mr. Chairman.

  STATEMENT OF HON. DARWIN ST. CLAIR, JR., CHAIRMAN, EASTERN 
                         SHOSHONE TRIBE

    Mr. St. Clair. First, Senator, I'd like to thank you for 
being here. Good morning. My name is Darwin St. Clair, Jr., 
Chairman of the Eastern Shoshone Tribe.
    First I'd like to thank you and welcome the Senate Select 
Committee on Indian Affairs for having a hearing in the Eastern 
Shoshone Country and the Wind River Reservation. This 
reservation was established by the Fort Bridger Treaty of 1868 
between the Eastern Shoshone Tribe and the United States 
Government, with the Eastern Shoshone Tribe being the 
aboriginal inhabitants in the state and area since time 
immemorial. However, currently the reservation is occupied by 
two federally recognized Indian tribes, the Eastern Shoshone 
and Northern Arapaho, and it is the only reservation in the 
state of Wyoming.
    Located here in west central Wyoming, the reservation is 
comprised of 2.2 million acres and is spread out upon a large 
rural geographical area consisting of 3,500 square miles of 
pristine mountain ranges, abundance of wild game and fishing, 
developed and undeveloped natural resources, and the most 
precious resource, water.
    The Eastern Shoshone Tribe is comprised of 4,276 enrolled 
members. The Northern Arapaho Tribe is comprised of around 
10,000 enrolled members. The majority of the reservation 
residents however live in the small communities of Crowheart, 
Fort Washakie, Ethete, Arapahoe and Boulder Flats. The majority 
of the Fremont County is comprised of Wind River Reservation 
and bordering towns of Dubois, Lander, Riverton and Shoshoni.
    As you stated, Senator, it has been over a decade since the 
Wind River was systematically attacked by the drug ring from 
2000 to 2005 before a coordinated law enforcement effort broke 
up the ring in 2005. I will intentionally not use the cartel's 
name in this testimony since I don't believe in giving them any 
credit for their efforts or publicity in their efforts to 
subject our people of the Wind River Reservation to the drug 
trade.
    At the time, the Wind River--like many reservations, the 
Wind River at that time suffered from high unemployment, 
poverty, some from public aid, substandard housing and 
substance abuse. Their plan was very simple, introduce a drug 
that was highly addictive to our population, the allure of easy 
money, and become entrenched in a community through family and 
interpersonal relationships. Further examination of the drug 
trafficking and gang activity in Indian Country systematically 
translates into identification of social, economic and justice 
vulnerabilities that each tribal nation has.
    In the years following the bust, the reservation and the 
surrounding area seen an influx of the funding for substance 
programming, most notably an annual conference on 
methamphetamine education and awareness. In addition, the Wind 
River Reservation was selected as one of four reservations for 
a presidential initiative called the High Priority Performance 
Goal, which was to reduce violent crime by 5 percent. This 
initiative lasted approximately two years and began October 1, 
2009 and ended September 30, 2011 and was successful in 
reaching its goal.
    During this time, police officer staffing levels were 
increased to the national rates of 3.5 persons per 1,000 of the 
service population. Wind River peaked at 26 of the 32 police 
officers projected for the area and were able to shift the 
paradigm of being reactive to a more proactive policing agency. 
However, due to the hiring process, the background, training, 
and retention issues, the BIA police force has faced a decline 
in the numbers, in the number of patrol officers, and as of 
today, we're looking at 50 percent decrease in 2014, from 24 
patrol officers to 12 patrol officers, and in 2015, we're 
looking at even dwindling numbers of possibly only nine 
officers. When you look at the number of people that we have 
here and the miles we have on our reservation, it's far beyond 
only nine officers.
    There is absolute need for tribal courts, and our 
prosecutor's office to beef up our standards as far as 
prosecuting these offenders, as well as the substance abuse and 
the use is a critical challenge to the community. And it does 
not discriminate by gender, does not discriminate by age. There 
are young people lining up for dialysis. There's fetal exposure 
issues, developmental and behavioral issues, many times which 
then affect our health care issues as far as funding and by 
caring for million dollar babies that are a result of this 
behavior. There have been reported instances that youths, 
adults or seniors have been so addicted to pain medication that 
they purposely hurt themselves in order to feed their 
addictions.
    The risks are much more dangerous today, and the meth has 
gotten stronger and more prevalent, from 40 percent purity now 
to a hundred percent purity, and has created many of the issues 
that we have, social ills and social issues that we have that 
get people into the court system.
    Lastly, there is issues here on the Wind River Reservation 
and in Indian Country that need to be looked at from a holistic 
approach involving all aspects, to address these issues from 
all angles. Funding programs in recovery, rehabilitation, 
education, employment and training are vital to addressing 
these serious issues. Thank you, sir.
    The Chairman. Well, thank your for your testimony. Thank 
you for your leadership. It was interesting to comment about 
people intentionally hurting themselves so that they could get 
prescription drugs to feed the addictions. So thank you. We'll 
get to the questioning in a little bit.
    [The prepared statement of Mr. St. Clair follows:]

  Prepared Statement of Hon. Darwin St. Clair, Jr., Chairman, Eastern 
                             Shoshone Tribe
    Zant Seekum Bae chu (Good Morning) My name is Darwin St. Clair Jr., 
Chairman Eastern Shoshone Tribe
    First I would like to thank you and welcome the Senate Select 
Committee on Indian Affairs for having this hearing in Eastern Shoshone 
Country and the Wind River Reservation. This reservation was 
established by the Fort Bridger Treaty of 1868 between the Eastern 
Shoshone and the United States Government. With the Eastern Shoshone 
Tribe being the aboriginal inhabitants in the state and area since time 
in memorial. However currently the reservation is occupied by two 
federally recognized Indian Tribes, the Eastern Shoshone and the 
Northern Arapaho and is the only reservation in the State of Wyoming. 
Located here in west central Wyoming, the reservation is comprised of 
2.2 million acres and is spread out upon a large rural geographical 
area consisting of 3,500 square miles of pristine Mountain ranges, 
abundance of wild game & fishing , developed and undeveloped natural 
resources and the most precious resource water. The Eastern Shoshone 
Tribe is composed of 4,276 enrolled members The Northern Arapaho Tribe 
is composed of around 10,000 enrolled members. The majority of the 
reservation residents however live in the small communities of 
Crowheart, Fort Washakie, Ethete and Arapaho. Majority of Fremont 
County is comprised of The Wind River Reservation and bordering towns 
of Dubois, Lander, Riverton and Shoshoni.
    It has been over a decade since Wind River was systematically 
attacked by a drug ring from 2000 to 2005 before a coordinated law 
enforcement effort broke up the ring in 2005. I will intentionally not 
use this cartels name in this testimony since I don't believe in giving 
them any credit for their efforts to subject our people of the Wind 
River Reservation to the drug trade. The drug ring was able to identify 
the vulnerabilities of the reservation and used them as strengths in 
their attack. Like many reservations, Wind River at that time suffered 
from high unemployment (75 percent), poverty (68 percent some form of 
public aid), substandard housing, and substance abuse. The primary law 
enforcement serving Wind River during the drug ring era was the BIA and 
operated with an average patrolling force of seven officers in the 
2000-2005 time span. These areas in addition to the large land base and 
the complicated maze of legal jurisdictions created the basis in which 
the ring leader admitted himself he used to write a ``drug 
distribution'' business plan. The plan was simple, introduce a drug to 
a highly addictive population, the allure of easy money, and become 
entrenched in the community through family and interpersonal 
relationships. Further examination of the drug trafficking and gang 
activity in Indian Country systematically translates into 
identification of the social, economic and justice vulnerabilities that 
each tribal nation has. If those vulnerable areas are left to the 
status quo they can be viewed as targets to outside organized 
activities. In essence the targeting can be viewed in terms of guerilla 
warfare. The strategy and tactics of guerrilla warfare tend to focus 
around the use of a small, mobile force competing against a large, 
unwieldy or vulnerable one. The guerrilla focuses on organizing in 
small units, dependent on the support of the local population.
    In the years following the ``Bust'' the reservation and the 
surrounding area seen an influx of funding for substance programing 
most notably an annual conference on Methamphetamine education and 
awareness. In addition the Wind River Reservation was selected as of 
one of four reservations for a Presidential Initiative called the 
``High Priority Performance Goal'' which was to reduce violent crime by 
5 percent. This initiative lasted approximately two years and began on 
October 1, 2009 and ended on September 30, 2011 and was successful in 
reaching its goal. The Tribal Court Services budget was increased to 
allow for updated equipment and staffing and along with the public 
defenders and adult probation programs they were able to curtail some 
of the revolving door offenders. During that time police officer 
staffing levels were increased to the national ratio of 3.5 person per 
one thousand of the service population. Wind River peaked at 26 of the 
32 police officers projected for the area and were able to shift the 
paradigm of being reactive to a more proactive policing agency. 
However, due to the hiring process (background and training) and 
retention issues, the BIA police force has faced a decline in the 
number of patrol officers. In 2012 the BIA police force operated with 
24 patrol officers and has decreased 50 percent during 2013 and 2014 to 
12 patrol officers. In addition it is projected that the BIA police 
force will be reduced by 9 during the first quarter of 2015 due to 
transfers/promotions. Currently we are seeing dwindling numbers in 
staffing our BIA police force with many officers working large amounts 
of overtime and possibly creating burnout for individuals.
    The Shoshone and Arapaho Tribal Court and Prosecutors Office report 
that 98 percent of all criminal, juvenile, minor-in-need of care 
(abuse/neglect), and involuntary commitment for mental health treatment 
cases are substance abuse related. The primary offenses that the BIA 
Police cite and arrest are for, but are not limited to, the following: 
Unlawful Possession of Drugs, Unlawful Sale of Drugs, Unlawful 
Manufacture, Illegal Possession or use of Alcohol, Open container/
furnishing alcohol, Public Intoxication, and Driving Under the 
influence. In 2012 of the 3,316 total arrests, including juvenile, 2785 
or 84 percent were primarily drug and alcohol related. In 2013, there 
were 3968 arrests; 3412 or 86 percent involved drugs or alcohol. In 
2014, there were 2348 arrests; with 2026 or 86 percent being drug or 
alcohol related. The statistics for the years 2012-2014 do not include 
the offense of Disorderly Conduct because the offense does not 
necessitate substance use, however, the BIA Police use this charge as a 
lesser offense for alcohol and drug use and possession charges. The 
average arrests for disorderly conduct average 579 for the 2012-2014 
timeframe. The most telling statistic is the dramatic increase of 130 
drug possession charges in 2013 to 296 in 2014 that the tribal court 
processed with only 10 percent being investigated further by law 
enforcement.
    Substance abuse and use presents a critical challenge to the 
community, one that doesn't discriminate by age or gender. There are 
young people lining up on dialysis, fetal exposure issues, 
developmental and behavioral issues. Which many times effects our 
Health Care Issues with funding, by caring for the Million Dollar 
babies which are the result of this behavior. There have been reported 
instances that youth, adults or seniors have been so addicted to pain 
medication, that they purposely hurt themselves in order to feed that 
addiction or even worse to make money to purchase there drug of choice. 
In the past year the reservation has lost a lot of family members in 
the 30-45 year age bracket due to health related issues from years of 
alcohol and drug use.
    The risks are much more dangerous today as the purity of such drugs 
as Meth have increased from 40 percent ten years ago to 100 percent. 
The local media dubbed this high purity drug as ``Monster Meth'' as its 
effects caused the user to have hallucinations, extreme mood swings, 
and unpredictable violent tendencies. This injection of behavioral 
altering attitudes into the reservation increases the risk to 
individuals, families, and even public entities of being victims of 
violence, accidents, and property destruction. This is quantified with 
the tribal court processing 59 property damage cases in 2013 and 78 in 
2014 as well as 74 Battery cases for both 2013 and 2014 and 89 
Aggravated Assaults in 2013 and 58 in 2014. Not including the countless 
incidences that go unreported. The tribes do not want to idly standby 
as their tribal members are taken through addiction or suffer thru 
victimization by association of the drug trade. The tribe is currently 
taking steps to address this situation through our Recovery Program, 
Rehabilitation program, Sho Rap lodge, Juvenile Probation, ESCAPE 
program, Unity, and Drug court are a few programs that assist in 
addressing these issues but not enough.
    These issues here on the Wind River as well as in Indian Country 
need to be looked at from a holistic approach, involving all the 
aspects to address these issue from all angles. Funding programs in 
recovery, rehabilitation, education, employment and training are vital 
in addressing these serious issues. While increased funding for public 
safety is welcomed, there are still deficiencies in employment 
opportunities, housing, and health care that need to be address 
equally.

    Next is Robert McSwain, Acting Director of Indian Health 
Service, Department of Health and Human Services. Welcome.

       STATEMENT OF ROBERT G. MCSWAIN, ACTING DIRECTOR, 
  INDIAN HEALTH SERVICE, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Mr. McSwain. Chairman Barrasso, thank you so much for 
inviting us to this session today. I want to share with you the 
Agency's efforts on addressing the harmful effects of drugs of 
American and Alaskan Natives.
    I'm accompanied by Dr. Susan Karol and Dr. Beverly Cotton, 
who are in behavioral health, and of course the acting Area 
Director for this region, Dorothy Dupree.
    They are really the critical part of our team, if you will, 
that is actually helping this community, but helping 
communities across the country, as you know, IHS plays an 
important role. We're one of the players and one of the main 
players that work directly with tribes, and I think that that 
unique role is the trust responsibility that we have for health 
care delivery to 2.1 million American Indians, Alaska Natives 
throughout the system. The system includes IHS, tribal and 
urban programs.
    The whole idea of illicit drugs has been well documented by 
the first panel. The numbers jumped out at me as I was coming 
in here preparing for this hearing and I was really struck by 
some of the numbers. But the fact is that a national survey on 
drug use and health, by Substance Abuse and Mental Health 
Administration, 4.9 percent of self-identified Americans 
Indians and Alaska Natives 12 years of age or older were found 
to have substance dependence or abuse of illicit drugs in 2013. 
That was 223 percent higher than non-Hispanic whites, a 
striking combination.
    A review of the literature reveals the problem with 
methamphetamine used in American Indian countries is not widely 
known. It's been shared by Chairman St. Clair that we get that 
information from the tribes. They tell us what's really 
happening. They report regularly whether it's an epidemic or 
whether it's a serious occurrence in their communities.
    In fiscal year 2014, there were over 31,000 
methamphetamine-related encounters in the Indian health care 
system. As a health care provider, they hit our system, whether 
it's a tribal system or an IHS system. Funds to address the 
methamphetamine problem were appropriated by Congress--thank 
you very much--in 2008 to allow IHS to develop pilot programs 
and potential larger scale interventions for Indian Country.
    In September 2009, the IHS began the Methamphetamine/
Suicide Prevention Initiative, pilot demonstration programs 
across Indian Country and tribal urban programs, and I think 
that we're making some real progress in that area. And let me 
just point out that the reason why it's working, it's money 
that's provided to the communities, and they determine how 
they're going to deal with the issue. It's not us telling them, 
proscribing what they do, but whatever works for each 
community. And as mentioned earlier, there are 566 tribes in 
the country, and there's probably twice that many Indian 
communities that must provide their own measures.
    Currently we support 130 programs across the country. The 
tribes on the Fort Washakie Reservation here; the Eastern 
Shoshone Tribe works to increase access to methamphetamine 
through their program prevention, while Northern Arapaho 
provides support to the White Buffalo Recovery Center, which my 
colleague here will be discussing shortly.
    The whole thing is--of course, the other one is 
prescription drugs. As a health system, we're the ones that are 
prescribing, and we're the ones that have to have a strategy to 
control the use. And we've had a number of measures that 
we're--it's in my statement--that we're working on that will in 
fact try to control the opioids and such. We have partnered 
with the BIA on some activities as well, and the National Drug 
Control Strategy, we're a member of that, and one of those is 
the YRTCS.
    We have ten youth regional treatment centers, and we're 
building two more in California. And the whole measure there is 
to get our youth into a place where we can really help them 
recover. And I believe that kind of effort with our youth is 
another way to really get things done. The Tribal Law and Order 
Act, we're very much involved in that as well.
    And I just want to say that I guess in closing, I'll close 
my statement now, but the fact that I find that our biggest 
success is going to be the fact that the Indian Health Service 
is working closely with communities and tribal leadership 
because it's the tribal leadership and us, being able to 
provide our science with their leadership, that we can begin to 
address these very difficult challenges. Thank you.
    [The prepared statement of Mr. Mcswain follows:]

Prepared Statement of Robert G. Mcswain, Acting Director, Indian Health 
         Service, U.S. Department of Health and Human Services
    Mr. Chairman, Mr. Vice Chairman and Members of the Committee:
    Good morning. I am Robert McSwain, Acting Director of the Indian 
Health Service (IHS). I am accompanied by Susan V. Karol, M.D., IHS 
Chief Medical Officer, and Beverly Cotton, DNP, Director of the 
Division of Behavioral Health. I appreciate this opportunity to appear 
before the Committee on behalf of the IHS to offer the Agency's efforts 
on addressing the harmful effects of dangerous drugs in American Indian 
and Alaska Native (AI/AN) communities.
    As you know, the IHS plays a unique role in the U.S. Department of 
Health and Human Services (HHS) to meet the Federal trust 
responsibility to provide health care to AI/AN people. The IHS provides 
comprehensive health service delivery to 2.2 million American Indians 
and Alaska Natives through a system of IHS, Tribal, and urban Indian 
operated facilities and programs based on treaties, judicial 
determinations, and Acts of Congress. The mission of the agency is to 
raise the physical, mental, social, and spiritual health of AI/AN 
people to the highest level, in partnership with the population we 
serve. The agency aims to assure that comprehensive, culturally 
acceptable personal and public health services are available and 
accessible to the service population. Our foundation is to promote 
healthy AI/AN people, communities, and cultures, and to honor the 
inherent sovereign rights of Tribes.
    Two major pieces of legislation are at the core of the Federal 
Government's responsibility for meeting the health needs of American 
Indians and Alaska Natives: The Snyder Act of 1921, P.L.67-85, and the 
Indian Health Care Improvement Act (IHCIA), P.L.94-437, as amended. The 
Snyder Act authorized appropriations for ``the relief of distress and 
conservation of health'' of American Indians and Alaska Natives. The 
IHCIA was enacted ``to implement the Federal responsibility for the 
care and education of the Indian people by improving the services and 
facilities of Federal Indian health programs and encouraging maximum 
participation of Indians in such programs.'' Like the Snyder Act, the 
IHCIA provides the authority for the provision of programs, services, 
functions and activities to address the health needs of American 
Indians and Alaska Natives. The IHCIA also includes authorities for the 
recruitment and retention of health professionals serving Indian 
communities, health services for people, and the construction, 
replacement, and repair of healthcare facilities.
    The IHS, in partnership with Tribes and Urban Indian health 
programs, provides essential medical and mental health services. These 
services include medical and surgical inpatient care, ambulatory care, 
mental health and substance abuse treatment and prevention, and medical 
support services such as laboratory, pharmacy, nutrition, diagnostic 
imaging, medical records, and physical therapy. Other services include 
public and community health programs to address issues such as 
diabetes; maternal and child health; communicable diseases such as 
influenza, HIV/AIDS, tuberculosis, and hepatitis; suicide prevention; 
substance abuse prevention; women's and elders' health; domestic 
violence prevention and treatment; and regional trauma/emergency 
medical delivery systems.
    The widespread use of illicit drugs is staggering nationwide. In 
2013, an estimated 24.6 million Americans aged 12 or older were current 
illicit drug users. \1\ Illicit drugs include marijuana/hashish, 
cocaine (including crack), heroin, hallucinogens, inhalants, or 
prescription-type psychotherapeutics (pain relievers, tranquilizers, 
stimulants, and sedatives) used non-medically. \2\ Among persons aged 
12 or older, the rate of current illicit drug use was 12.3 percent 
among American Indians or Alaska Natives. \3\
---------------------------------------------------------------------------
    \1\ Substance Abuse and Mental Health Services Administration, 
Results from the 2013 National Survey on Drug Use and Health: Summary 
of National Findings. NSDUH Series H-48, HHS Publication No. (SMA) 14-
4863. Rockville, MD: Substance Abuse and Mental Health Services 
Administration, 2014.
    \2\ Ibid.
    \3\ Ibid.
---------------------------------------------------------------------------
    A review of the literature reveals the problem of methamphetamine 
use in AI/AN communities has not been widely studied by the academic 
and scientific community. However, Tribes and AI/AN organizations 
report regularly on the seriousness of the epidemic in AI/AN 
communities. Methamphetamine is a low cost, highly addictive stimulant 
drug. Its introduction to already at-risk AI/AN communities 
destabilizes and disrupts entire health and social systems. Chronic 
methamphetamine abusers may display psychotic manifestations, including 
paranoia, visual and auditory hallucinations, and delusions. \4\ 
Persons abusing methamphetamine are at higher risk of contracting HIV, 
hepatitis, and other sexually transmitted diseases. \5\ In Fiscal Year 
(FY) 2014, there were over 31,000 methamphetamine-related encounters in 
the Indian health care system. \6\ Funds to address the methamphetamine 
problem were appropriated by Congress in 2008 to allow IHS to develop 
pilot programs and potential larger scale interventions for Indian 
Country.
---------------------------------------------------------------------------
    \4\ Substance Abuse and Mental Health Services Administration, 
Center for Behavioral Health Statistics and Quality. (2014). The DAWN 
Report: Emergency Department Visits Involving Methamphetamine: 2007 to 
2011. Rockville, MD.
    \5\ Ibid.
    \6\ U.S. Department of Health and Human Services. Indian Health 
Service, Division of Behavioral Health. (2015). Methamphetamine 
Encounters Report for Fiscal Year 2014. Behavioral Health Data Mart and 
Reporting System.
---------------------------------------------------------------------------
    In September 2009, Congress appropriated funds to IHS to address 
the dual crises of methamphetamine abuse and suicide in AI/AN 
communities. As a result, the IHS began the Methamphetamine and Suicide 
Prevention Initiative (MSPI), a pilot demonstration project for IHS, 
Tribal, and Urban Indian health programs. Funded projects focused the 
scope of their activities on the issue facing their communities. 
Approximately 20 percent of MSPI projects address methamphetamine use 
and abuse and 80 percent of MSPI projects focus on suicide prevention. 
The MSPI supports the use and development of evidence-based and 
practice-based models which are culturally appropriate prevention and 
treatment approaches to methamphetamine abuse and suicide in a 
community driven context. The MSPI supports 130 programs across the 
country. The seven guiding principles of the MSPI are to effectively 
prevent, reduce, or delay the use and/or spread of methamphetamine 
abuse; build on the foundation of prior methamphetamine and suicide 
prevention and treatment efforts to support the IHS, Tribes, and Urban 
Indian health organizations in developing and implementing Tribal and/
or culturally appropriate methamphetamine and suicide prevention and 
early intervention strategies; increase access to methamphetamine and 
suicide prevention services; improve services for behavioral health 
issues associated with methamphetamine use and suicide prevention; 
promote the development of new and promising culturally and community 
relevant services; and demonstrate efficacy and impact. From 2009 to 
2014, the MSPI resulted in over 9,400 individuals entering treatment 
for methamphetamine abuse; more than 12,000 substance abuse and mental 
health encounters via telehealth; over 13,150 professionals and 
community members trained in suicide crisis response; and more than 
528,000 encounters with youth provided as part of evidence-based and 
practice-based prevention activities. \7\ Tribes on the Fort Washakie 
reservation in the State of Wyoming have contributed to the success of 
the MSPI. The Eastern Shoshone Tribe works to increase access to 
methamphetamine prevention and treatment services, while the Northern 
Arapaho Tribe provides support to the White Buffalo Recovery Center for 
methamphetamine addiction treatment. The IHS is thankful to both of 
these Tribes, and the many others participating in the MSPI, for their 
continued work and support to serve the people of their communities in 
substance abuse treatment.
---------------------------------------------------------------------------
    \7\ U.S. Department of Health and Human Services. Indian Health 
Service, Division of Behavioral Health. http://www.ihs.gov/mspi/
aboutmspi/
---------------------------------------------------------------------------
    The FY 2016 Budget includes key investments to launch Generation 
Indigenous, an initiative addressing barriers to success for Native 
American youth. This integrative, comprehensive, and culturally 
appropriate approach across the Federal Government will help improve 
lives and opportunities for Native American youth. The HHS Budget 
Request includes a new Tribal Behavioral Health Initiative for Native 
Youth with a total of $50 million in additional funding for IHS and 
SAMHSA. Within IHS, the request includes $25 million to expand the 
successful Methamphetamine and Suicide Prevention Initiative to 
increase the number of child and adolescent behavioral health 
professionals who will provide direct services and implement youth-
based programming at IHS, tribal, and urban Indian health programs, 
school-based health centers, or youth-based programs. The Budget 
includes a $25 million increase for SAMHSA to support mental health 
promotion and substance use prevention activities for high-risk Native 
youth and their families, enhance early detection of mental and 
substance use disorders among Native youth, and increase referral to 
treatment. These activities will both fill gaps in services and fulfill 
requests from tribal leaders to support Native youth.
    The non-medical use of prescription drugs and its consequences have 
been a major public health problem for the Nation and in Indian 
Country. Recognizing that prescription drug abuse and deaths due to 
overdose from prescription medications are national public health 
concerns, the IHS convened a national Prescription Drug Abuse, or PDA, 
workgroup at the IHS National Combined Councils meeting in Rockville, 
MD, on July 11, 2012. The workgroup developed a number of 
recommendations that were grouped around six focus areas: patient care; 
policy development/implementation; education; monitoring; medication 
storage/disposal; and law enforcement. The IHS PDA workgroup supports 
the HHS Assistant Secretary for Planning and Evaluation (ASPE) action 
plan to address the opioid and heroin related overdose, death, and 
dependence. This initiative has identified three priorities: providing 
training and education resources, including updated prescriber 
guidelines, to assist health professionals in making informed 
prescribing decisions; increasing use of naloxone; and expanding the 
use of medication assisted treatment (MAT).
    Significant prevention strategies were developed as a result of the 
IHS PDA workgroup. Those strategies included improving medical practice 
in prescribing opioids by establishing a national IHS Chronic Non-
Cancer Pain Management Policy in the Indian Health Manual and 
standardizing pain management formularies. The majority of healthcare 
providers receive minimal education regarding addiction. Therefore, IHS 
developed a plan to require mandatory prescriber education. The 
mandatory training focuses on safe prescribing habits and treatment of 
chronic pain to reduce prescription drug diversion and deaths due to 
opiates.
    IHS partnered with the Bureau of Indian Affairs to make naloxone, a 
drug for opiate overdose reversal to prevent deaths, available to first 
responders such as police officers and fire and emergency medical 
personnel working in Indian communities as a part of our overdose or 
``harm reduction'' program. Additionally, IHS sponsors participation in 
state-based Prescription Drug Monitoring Programs to make data 
available to assist in reducing and preventing the misuse, abuse, and 
diversion of prescription controlled substances. IHS provides basic 
information for its healthcare providers about managing chronic pain--
including opioid prescribing--through its IHS Pain Management website. 
The IHS also supports proper medical disposal through community 
outreach and ``Prescription Drug Take-Back'' events. The IHS PDA 
workgroup continues to be progressive by anticipating needs and 
developing best practices in advance of agency requirements. One 
example is an inter-agency PDA subgroup formed in 2014 by the IHS PDA 
workgroup. The subgroup consisted of representation from SAMHSA, the 
Health Resources and Services Administration, the Centers for Disease 
Control and Prevention, National Institute on Drug Abuse, and other 
stakeholders. The subgroup developed a cross-agency approach to 
addressing prescription drug abuse in AI/AN communities. The resources 
developed in the cross-agency approach will be disseminated through 
SAMHSA to Tribes and key stakeholders involved in the work to combat 
prescription drug abuse.
    Nationally, IHS participates as a Federal partner in the White 
House Office of National Drug Control Policy's Interagency workgroups 
and its National Drug Control Strategy to ensure that strategy 
implementation is informed by IHS and Tribal healthcare systems. IHS 
assists in specific objectives to support the National Drug Control 
Strategy, and IHS accounts for its drug control funding through annual 
Accounting and Performance Summary reports for National Drug Control 
Activities.
    One performance measure supporting the National Drug Control 
Activities is the accreditation of IHS and Tribal Youth Regional 
Treatment Centers (YRTCs). To help youth battling substance abuse, IHS 
administers ten YRTCs that provide inpatient treatment for substance 
abuse and co-occurring mental health disorders among AI/AN youth. 
Compared with other racial/ethnic groups, AI/AN tend to use alcohol and 
drugs at a younger age, use them more often and in higher quantities, 
and experience more negative consequences from them. \8\ One recent 
analysis of the 2005 and 2007 Youth Risk Behavior Survey found that 
10.3 percent of AI/AN youth reported methamphetamine or heroin use at 
least once in their lifetime. \9\ This has serious implications for 
disease prevention, as injection drug users have high rates of viral 
hepatitis C (HCV) infection with an estimated 64 percent chronically 
infected with HCV. \10\
---------------------------------------------------------------------------
    \8\ http://www.cdc.gov/hiv/risk/racialethnic/aian/
    \9\ Ramisetty-Mikler, S. and Ebama, M. S. (2011), Alcohol/Drug 
Exposure, HIV-Related Sexual Risk Among Urban American Indian and 
Alaska Native Youth: Evidence From a National Survey. Journal of School 
Health, 81: 671-679. doi: 10.1111/j.1746-1561.2011.00643.x
    \10\ Grebely and Dore. Prevention of Hepatitis C Virus in Injecting 
Drug Users: A Narrow Window of Opportunity J Infect Dis. (2011) 203 
(5): 571-574.doi: 10.1093/infdis/jiq111
---------------------------------------------------------------------------
    The YRTCs provide a range of clinical services to provide treatment 
services rooted in culturally relevant, holistic models of care 
including group, individual, and family psychotherapy, life skills 
development, medication management, aftercare relapse prevention, and 
post-treatment follow up. YRTCs also provide education, culture-based 
prevention activities, and evidence- and practice-based models of 
treatment to assist youth in overcoming their challenges and to become 
healthy, strong, and resilient community members.
    IHS has also recognized an increasing prevalence of intrauterine 
drug exposure, Neonatal Abstinence Syndrome (NAS) and associated 
pediatric adverse childhood experiences (ACE) across Indian Country. 
NAS is a treatable syndrome which results after exposure to many 
prescribed drugs and heroin. This can happen whether these drugs are 
used non-medically or by prescription. In 2012, 44 percent of infants 
born in one AI/AN community were reported to be exposed to drugs and/or 
alcohol in utero: 37 percent involved opioids, with 50 percent of those 
exposures due to buprenorphine, and 15 percent of newborns were exposed 
to methamphetamine. \11\ As a result of staggering figures such as 
these, IHS has instituted programs that promote positive and protective 
resiliency for early identification of childhood trauma for AI/AN 
children. IHS in partnership with the Committee on Native American 
Child Health developed recommendations on organizational practices to 
shape and improve the health and safety of AI/AN children. Also, IHS 
developed a local strategy on workforce development for healthcare 
providers and developed recommendations on the community education IHS 
should promote to reach people with information and resources to 
promote health and safety to reduce childhood trauma and toxic stress. 
To improve maternal and child health, a team comprised of healthcare 
professional representation from obstetrics, pediatrics, nursing and 
behavioral health instituted best practices, policies and procedures 
for screening during the prenatal period, screening at birth, and 
treatment of NAS. Although NAS is costly to treat and unpleasant to 
witness when untreated, NAS should be regarded as an expected 
consequence of medication assisted treatment for women with substance 
use disorder. Moreover, NAS resulting from such treatment is highly 
preferable to pregnant women remaining untreated and unmonitored.
---------------------------------------------------------------------------
    \11\ American Academy of Pediatrics Committee on Native American 
Child Health. (2013). Child Health Consultation Visit Report, Blackfeet 
Service Unit. Washington, DC.
---------------------------------------------------------------------------
    Alcohol is a teratogen, and alcohol consumption during pregnancy 
can cause significant birth defects, including Fetal Alcohol Syndrome 
Disorders (FASD). FASD can include abnormal facial features, brain 
damage, impaired growth, and cognitive and behavioral abnormalities. 
Individuals with FASD may have neurodevelopmental abnormalities, but no 
observable physical abnormalities. There is no known safe amount of 
alcohol, type of alcohol, or safe time during pregnancy to drink. To 
prevent FASD, a woman should not drink alcohol while she is pregnant, 
or when becoming pregnant is possible. \12\ Other actions taken by IHS 
to prevent FASD include access to all FDA-approved contraceptives, 
pregnancy testing, prenatal care and alcohol use counseling. Health 
education on the dangers of fetal exposure to alcohol and the fact that 
alcohol is a teratogen are provided during pregnancy testing, medical 
visits for contraceptive care, prenatal care, and at other appropriate 
encounters. All prenatal patients receive a verbal alcohol screening 
for alcohol use and are informed about the dangers of prenatal alcohol 
consumption during their prenatal care.
---------------------------------------------------------------------------
    \12\ http://www.fasdcenter.samhsa.gov
---------------------------------------------------------------------------
    The Tribal Law and Order Act of 2010, or ``TLOA'' outlined 
important steps toward improving the delivery and administration of 
public safety in Indian country. The IHS has worked hard to implement 
both the spirit and the letter of the law. In my testimony this 
morning, I will address the sections of the Act that have most directly 
assisted the IHS and its Federal partners in addressing the harmful 
effects of dangerous drugs.
    The purpose of the TLOA is to institutionalize reforms within the 
Federal Government so that justice, safety, education, youth, and 
alcohol and substance abuse prevention and treatment issues are on the 
forefront of Federal efforts. Section 241 of the TLOA amends the Indian 
Alcohol and Substance Abuse Prevention and Treatment Act of 1986, 
expanding the number of Federal agencies required to coordinate their 
efforts on alcohol and substance abuse issues in Indian Country. 
Specifically, TLOA directs the Secretaries of HHS and the Department of 
the Interior (DOI), together with the Attorney General, to develop and 
enter into a Memorandum of Agreement (MOA). IHS is an active member of 
the Interdepartmental Coordinating Committee on Indian Alcohol and 
Substance Abuse (IASA) and the MOA workgroups tasked to carry out the 
TLOA activities through collaboration with Federal partners.
    In 2014, the Phoenix IHS Area and Billings IHS Area funded two two-
and-a-half day sessions to provide training and technical assistance 
resources for Tribes in those IHS Service Areas to develop tribal 
action plans which address alcohol and substance abuse issues in their 
communities. The regional sessions were held in partnership with 
SAMHSA, Department of Justice, and DOI and support the work of the TAP 
workgroup.
    Chairman Barrasso, Vice Chairman Tester, members of the Committee, 
we at the IHS fully recognize the profound impact of dangerous drugs in 
Indian country. While our public health approaches to establish 
comprehensive policies, programs, funding, training, and partnerships 
to promote a multifaceted range of activities for the prevention of the 
harmful effects of dangerous drugs continue, we recognize IHS bears a 
deep responsibility for ensuring AI/AN people live in healthy 
communities free of the dangerous impact these drugs have on their 
physical, mental, social, and spiritual health.
    On behalf of the Department, I personally want to thank the Senate 
Committee on Indian Affairs for recognizing this important issue. I 
look forward to continuing to work with you on these vitally important 
issues. This concludes my remarks, and I welcome any questions that you 
may have. Thank you.

    The Chairman. Thank you, Mr. McSwain.
    Next is Sunny Goggles, the Director of the White Buffalo 
Recovery Program for the Arapaho Tribe, the Wind River 
Reservation right here in Ethete. Thanks so much for being with 
us.

          STATEMENT OF SUNNY GOGGLES, DIRECTOR, WHITE 
        BUFFALO RECOVERY PROGRAM, ARAPAHO TRIBE OF THE 
                     WIND RIVER RESERVATION

    Ms. Goggles. Hello. My name is Sunny Goggles. I am the 
director of the White Buffalo Recovery Program, which is an 
Indian Health Service 638 Contract for Substance Abuse Services 
for the Northern Arapaho Tribe. I've been designated to speak, 
and am honored, on behalf of the Northern Arapaho Tribe 
regarding the issue of dangerous drugs on our reservation.
    The White Buffalo Recovery Center provides outpatient 
treatment services to adults and adolescents. The program 
currently provides adult intensive outpatient treatment, adult 
outpatient treatment, adolescent outpatient treatment and 
recovery support programming. The program is a State of Wyoming 
certified program with three certified or licensed providers at 
the Arapahoe site and three certified or licensed providers at 
the Wind River Hotel and Casino site. The program refers to 
residential treatment centers with limited funding to assist 
with client costs, which limits clients to State-funded beds in 
Wyoming.
    In 2014, the program served 109 adults and five adolescents 
with Level III inpatient treatment recommendations. The program 
assisted 34 of these individuals into placement at this level 
of care, but several people are on three- to six-month waiting 
lists for beds.
    Out of the 2014 population, the program serves a total of 
92 percent court-involved cases, including tribal court, 
Fremont County court systems, federal court systems and local 
off-reservation city justice systems. The funding does allow 
for prevention services, and this program is being developed.
    Two youth mentors have been hired, and they do after-school 
programming for Riverton Middle School. This has a tribal 
population of 116 youth ages 11 to 14, and they do this four 
days a week. They focus on drug and alcohol prevention, 
American Indian Life Skills Curriculum and leadership.
    The Wind River Reservation has a crime rate five to seven 
times the national average and a long history of ghastly 
homicides, according to the New York Times in 2012. Like many 
reservations, we suffer from high unemployment at 76 percent, 
poverty at 68 percent, some form of public aid, substandard 
housing and substance abuse. The reservation makes up most of 
Fremont County, and Fremont County leads Wyoming in substance 
use, violent crime and substance abuse effects, including 
morbidity and mortality. Substance abuse costs lives, hurts 
children and families, and places a burden of expense on 
police, courts, jails and public expenditures.
    On the reservation, the social effects of substance abuse 
are vast. Families are torn apart, lives are lost, and personal 
injury is the result. In addition, private and public property 
is destroyed, thus creating a reflection of the community's 
lack of self-esteem and pride. Substance abuse effects are 
directly related to the mortality of the tribal population in 
our community. The majority of the accidents and other adverse 
effects are alcohol and drug related. This includes car 
accidents and unintended injury. Cancer, heart disease, 
cirrhosis and diabetes are all directly related or contributed 
to by substance abuse.
    I share this information with you so you can reflect on 
where our community has been in ten years because I know our 
issues will get better. I know we are taking strides down the 
right path, and I know that there is hope.
    The Business Council has established meetings among the 
elders, schools and tribal programs to discuss the increase in 
methamphetamine on the reservation in the last couple of years. 
In 2005-2007, there were a series of federal drug busts that 
sent several tribal members to federal prison for distribution, 
manufacturing and human trafficking. In the last four years, 
many of these individuals have returned to our community. With 
the lack of reentry services and minimal treatment services in 
prison, the community has seen an increase in methamphetamine 
abuse. This is combined with the high rate of alcohol use, 
underage drinking, and other drug use in our community.
    This newly formed group meets monthly and is working to 
update the Tribal Action Plan, and this will include Department 
of Family Services, law enforcement, school districts, 
programs, elders, and most importantly, our youth. The Business 
Council has required attendance by tribal programs and are 
pushing for programs to collaborate for a unified effort to 
combat substance abuse.
    The Business Council and the tribe are dedicated to 
reducing crime, decreasing substance abuse and creating a 
healthy environment for our families. The Northern Arapaho 
Tribe does not want to be known for living on the most 
depressing and dangerous place, as described in the Business 
Insider in 2013, but rather for the efforts it took to overcome 
and survive these disparities. Thank you.
    [The prepared statement of Ms. Goggles follows:]

 Prepared Statement of Sunny Goggles, Director, White Buffalo Recovery 
          Program, Arapaho Tribe of the Wind River Reservation
    Tous', nineeninoo nii'eihii hoonobetouu. Hello, My name is Sunny 
Goggles, I am the Director of the White Buffalo Recovery Program which 
is a Indian Health Service 638 Contract for Substance Abuse Services 
for the Northern Arapaho Tribe. I have been designated to speak today 
on behalf of the Northern Arapaho Tribe regarding the issue of 
dangerous drugs on our reservation.
    TheWhite Buffalo Recovery Center provides outpatient treatment 
services to adults and adolescents. The program currently provides 
adult intensive outpatient treatment, adult outpatient treatment, 
adolescent outpatient treatment and recovery support programming. The 
program is a State of Wyoming certified program with three certified or 
licensed providers at the Arapahoe site and three certified or licensed 
providers at the Wind River Hotel and Casino site. The program refers 
to residential treatment centers with limited funding to assist with 
client costs, which limits clients to state funded beds in Wyoming. In 
2014 the program served 109 adults and 5 adolescents with Level III, 
inpatient treatment recommendations. The program assisted 34 
individuals in placement at this level of care, several people are on 
three to six month waiting lists for beds. Out of the 2014 population 
the program serves a total of 92 percent court involved cases including 
tribal court, Fremont county court systems, federal court systems and 
local off reservation city justice systems. The funding does allow for 
prevention services and this program is being developed. Two youth 
mentors have been hired and they do afterschool programming with 
Riverton Middle School which has tribal population 116 youth, ages 11 
to 14, four days a week. They focus on drug and alcohol prevention, 
American Indian Life Skills Curriculum, and leadership.
    The Wind River Indian Reservation has a crime rate five to seven 
times the national average and a long history of ghastly homicides 
according to New York Times, 2012. Like many reservations, the Wind 
River Reservation suffers from high unemployment (76 percent), poverty 
(68 percent some form of public aid), substandard housing, and 
substance abuse. The reservation makes up most of Fremont County and 
Fremont County leads Wyoming in substance use and violent crime and 
substance abuse effects (morbidity and mortality). Substance Abuse 
costs lives, hurts children and families and places a burden of expense 
on police, courts, jails and public expenditures.
    On the Wind River Reservation the social effects of substance abuse 
are vast. Families are torn apart, lives are lost, and personal injury 
is the result. In addition, private and public property is destroyed 
thus, creating a reflection of the community's lack of self-esteem and 
pride. Substance Abuse effects are directly related to the mortality of 
the tribal population in our community. A majority of the accidents and 
other adverse effects are alcohol and drug related, this includes car 
accidents and unintended injury. Cancer, Heart Disease, Cirrhosis and 
Diabetes have are directly related to or contributed to by substance 
abuse.
    I share this information so that you can reflect on where our 
community was in ten years. Because I know our issues will get better. 
I know we are taking strides down the right path. I know there is hope.
    The Business Council has established meetings among, elders, 
schools and tribal programs to discuss the increase in Methamphetamine 
on the reservation in the last couple of years. In 2005-2007 there were 
a series of Federal drug busts that sent several tribal members to 
federal prison for distribution, manufacturing, and human trafficking. 
In the last four years many of these individuals have returned to the 
community with a lack of reentry services and minimal treatment 
services in prison the community has seen an increase in 
methamphetamine abuse. This is combined with the high rate of alcohol 
abuse, underage drinking and other drug use in the community. This 
newly formed group meets monthly and is working update the Tribal 
Action Plan that will include Department of Family Services, Law 
Enforcement, School Districts, Programs, Elders and Youth. The Business 
Council has required attendance by Arapaho Tribal programs and are 
pushing for programs to collaborate for a unified effort to combat 
substance abuse.
    The Business Council and the tribe are dedicated to reducing crime, 
decreasing substance abuse and creating a healthy environment for our 
families. The Northern Arapaho Tribe does not want to be knows for 
living on the ``Most Depressing and Dangerous Place to Live'' as 
described by Business Insider in 2013 but rather for the efforts it 
took to overcome and survive with these disparities.
    Background information
    The Northern Arapaho Tribe of Wyoming is one of four groups of 
Arapaho who originally occupied the headwaters of the Arkansas and 
Platte Rivers. After signing the Treaty of 1851, the Arapaho and 
Cheyenne then shared land encompassing one-sixth of Wyoming, one-
quarter of Colorado and parts of western Kansas and Nebraska. Later, 
when the Treaty of 1868 left the Northern Arapaho without a land base, 
they were placed with the Shoshone in west central Wyoming, on the Wind 
River Reservation. The Northern Arapaho are a federally recognized 
tribe with 50 percent ownership with the Eastern Shoshone Tribe over 
the Wind River Indian Reservation in Wyoming. Extending over two 
million acres from the Wind River Range of the Rocky Mountains east 
onto the Plains, it is the fourth largest reservation in the United 
States. The Arapaho residences and communities of Beaver Creek, St. 
Stephens, Arapahoe, and Ethete extend along the Little Wind River in 
the southeast section of the reservation. The city of Riverton, which 
is mainly non-tribal land ownership, has a 20 percent Native 
population. Current Northern Arapaho tribal population is 9,976 
enrolled members. The Eastern Shoshone tribal population is nearly 
4,800 and the reservation is home to thirty three other tribes 
according to U.S. Census Data, 2010.
    Tribal administration and governance is centralized in the town of 
Ethete, with several tribal programs located in the Arapahoe Area which 
is 20 miles east of Ethete, while Shoshone tribal offices and federal 
government agencies are located in Fort Washakie about seven miles to 
the west. The Northern Arapaho have resisted adopting a constitution 
since it was first proposed by the Bureau of Indian Affairs (BIA) in 
the 1930s. The Business Council is elected every two years and is 
composed of six members over the age of eighteen years old. Besides the 
Business Council, Northern Arapahos govern through resolutions passed 
in General Council, a meeting in which all present and eligible tribal 
members discuss and decide issues facing the tribe.
    The NIDA (2015) states that scientific research since the mid-1970s 
shows that drug abuse treatment can help many drug abusing offenders 
change their attitudes, beliefs, and behaviors towards drug abuse, 
avoid relapse, and successfully remove themselves from a life of 
substance abuse and crime. It is true that legal pressure might be 
needed to get a person into treatment and help them stay there. Once in 
a treatment program, however, even those who are not motivated to 
change at first can eventually become engaged in a continuing treatment 
process. The problem is the lack of appropriate levels of treatment 
services for the tribal population. This is evident by the 2014 report 
by the White Buffalo Recovery Center.
    Adult program 2014: Assessments are conducted by licensed and 
certified staff utilizing the Addiction Severity Index (ASI). A 
provider will visit Fremont County Detention Center and Wind River BIA 
Correctional Facility once a week for assessments. Total of 327 Adults 
assessed. The program offers Level II.1 Intensive Outpatient Program 
which is 9 hours of treatment a week for 12 weeks. This allows clients 
to be home and still get an intensive level of treatment currently the 
program has 10 slots for this program. Total of 49 Adults. The program 
offers Level I Outpatient Programs including Basic Alcohol and Drug 
Education (BADE), Relapse Prevention and Parenting this includes group 
or individual sessions. This is a minimum of one hour a week for 12 
weeks. Total of 104 Adults. The program offers Level 0.5 Adult DUI 
Education Class once a month. This class is a total of 12 hours and is 
a state approved curriculum. Total of 62 Adults. Individuals who need a 
Level III Residential placement are referred to local inpatient 
facilities and the program will provide transportation as needed. Total 
of 109 Adults. Due to a lack of funding the program utilizes facilities 
within the State of Wyoming and clients are on waiting lists for state 
funded beds. The program then assists with the clients' portion of 
payment. The program receives $79,000 a year for inpatient placement. 
In the past the program has paid $15,000 for 30 days of treatment which 
means 5.3 clients could attend this level of care. With the use of 
state funded beds the program has been able to send 32 clients to 
inpatient for 90 days or more. The problem is many individuals have a 3 
to 6 month wait before they get a bed date, during this time many 
clients loose contact with the program, get re arrested or lose their 
life. With only one facility 32 miles away, with limited capacity, 
utilizing a transitional program awhile awaiting a bed date is 
infrequent. The closest adult inpatient facility is two hours away and 
the program has referred people to centers in California and Nevada 
also. For those that do return from Level III treatment there is only 
one place for reentry and that is in Fort Washakie at Sho Rap Lodge, 
otherwise many people go back into the housing situation that they 
left. Their change for continued sobriety is decreased due to the lack 
of transitional housing.
    Adolescent Program 2014: Assessments are conducted by licensed and 
certified staff utilizing the Adolescent Addiction Severity Index 
(AASI). Total of 13 Adolescents assessed. Many clients get an 
assessment with another program and come to White Buffalo Recovery for 
services. The program offers a Level I Outpatient Adolescent Education 
Program for a minimum of one hour a week for 8 weeks. Total of 12 
Adolescents. The program offers a Level 0.5 Minor In Possession (MIP) 
Education course once a month. This is an 8 hour course and is a state 
approved curriculum. Total of 8 Adolescents. Individuals who need a 
Level III Residential placement are referred to local inpatient 
facilities and the program will provide transportation as needed. Total 
of 5 Adolescents. Facilities utilized are Central Wyoming Counseling 
Center in Casper, WY (2 hours one way), Northwest Counseling in Powell, 
WY (2 hours one way), 4 Dances Treatment Center (5 hours one way) and 
Cathedral Home in Laramie, WY (3 hours one way). Currently the program 
does not offer Level II.1 Intensive Outpatient Program but is planning 
to offer this level of care in June 2015. The program currently refers 
out for this Level of care. Total of 10 Adolescents. The program is 
waiting to move into a new modular office that will have space for 
group counseling. The only place to get Level II.1 care is through the 
Wellness Court in Fort Washakie (32 miles away). The program offers 
youth prevention this includes school presentations, youth conferences, 
mentoring services, community events and sober activities. Total of 300 
Adolescents served.
    Causes of Death 2001-2010 of Tribal population in Wyoming, Vital 
Statistic Data

  <bullet> 1st ACCIDENTS AND OTHER ADVERSE EFFECTS (INJURY)
  <bullet> 2nd CANCER
  <bullet> 3rd HEART DISEASE
  <bullet> 4th CHRONIC LIVER DISEASE (CIRRHOSIS)
  <bullet> 5th DIABETES

    Mortality Rates 2001-2011 for the Tribal Population in the State of 
Wyoming
    The number of deaths that occur in the population per unit of time 
(usually one year)

  <bullet> Cancer 185.70 per 100,000 (whites 173.1/100,000)
  <bullet> Heart Disease 170.28 per100,000 (whites 164.07/100,000)
  <bullet> Accidents and Adverse Effects 121.01 per 100,000 (whites 
        61.75/100,000)
  <bullet> Diabetes 90.01 per 100,000 (whites 23.22/100,000)
  <bullet> Chronic Liver Disease 87.00 per 100,000 (whites 9.85/
        100,000)

    The life expectancy for the general population is 78.7 years.
    The life expectancy for Native Americans in the US is 71.1 years.
    Native Americans in SD can expect to live only to their 64th 
birthday.
    The average of death for Native Americans in Wyoming is 53.1 years 
old.

    The Chairman. Well, thank you. Thank you for your 
leadership and for your commitment, and we'll have some 
additional questions.
    Mr. Tillman, thank you so much for being with us today.

STATEMENT OF CLAULLEN TILLMAN, EASTERN SHOSHONE TRIBAL MEMBER; 
 ROCKY MOUNTAIN REPRESENTATIVE, UNITED NATIONAL INDIAN TRIBAL 
                             YOUTH

    Mr. Tillman. Good morning, Chairman Barrasso and members of 
the Committee. Thank you for having me speak on behalf of the 
UNITY as well as, you know, my role as the Rocky Mountain 
Regional Representative for the states of Montana and Wyoming.
    UNITY is the largest youth-led program in the country. We 
have 140 different youth councils in 37 different states. We 
focus on different issues that affect Indian Country, but the 
most, I guess, vital one that we go on is healthy lifestyles, 
whether that's eating healthy. It also goes into being sober.
    I've never touched alcohol. I've never touched anything, 
any drugs, any tobacco, nothing like that, but attending school 
on the reservation, it is very prevalent. You see your peers 
using it. And the sad thing to think about is, it is the norm. 
Tobacco, drinking, all of that is seen as a right of passage, 
and it's truly sad seeing our young people have to go through 
that, especially having to go through that at school when they 
already see it in most of their homes.
    My work with UNITY is expands. It's all volunteer work. I 
focus on the youth in my region as well as youth across the 
country, and we focus on trying to use prevention services to 
prevent drug use and all that before they start. It's a whole 
lot easier to stop it instead of trying to get them off of it, 
that they already use.
    With that, I do a lot of volunteer work with parents 
conferences program and ESCAPE is the Eastern Shoshone Cross-
Age Peer Education. We partner with NIDA, the National 
Institute on Drug Awareness, and last year we went into the 
schools for Red Ribbon Week, and we were able to talk to many 
different classes, from kindergarten all the way up to seniors 
in high school, and with that, we were able to I guess connect 
with youth on a more personal level.
    The prevention programs and stuff do a great job of 
stopping and prevention, but I believe that if it comes from 
someone their own age coming into the school to talk, the 
information sticks with them a whole lot more than someone in a 
director role or higher up. It's better seeing it come from 
someone their own age. So being with that, I see success within 
the ESCAPE program, as well as UNITY.
    Going in to Mr. Robert McSwain's testimony, I serve as a 
student ambassador for the Generation Indigenous Program--
that's a new, recent program that the Obama Administration just 
launched. It's going to take the prevention programs by a 
storm. It's going to allow all this Federal Government spending 
and all this money to go into a budget to give back to our 
Indian Health Services and help with prevention a whole lot 
better.
    With that, I'd like to thank Chairman Barrasso as well as 
members of the Committee for allowing me to speak here this 
morning. Thank you.
    [The prepared statement of Mr. Tillman follows:]

Prepared Statement of Claullen Tillman, Eastern Shoshone Tribal Member; 
   Rocky Mountain Representative, United National Indian Tribal Youth
    Good afternoon, Chairman Barrasso, Vice Chairman Tester, and 
members of the Committee. Thank you for the opportunity to provide a 
statement on behalf of the United National Indian Tribal Youth 
organization on the harmful effects of dangerous drugs in native 
communities such as my own.
    The United National Indian Tribal Youth or U.N.I.T.Y is the largest 
Native American youth led organizations in the country. In my role as 
the Rocky Mountain Regional Representa-tive I represent both the states 
of Montana and Wyoming as a voice for the youth in this region. I serve 
on a 12 person executive committee where we have one male co-president, 
one female co-president, and ten different regional representatives who 
serve in the ten different regions (Northwest, Northeast, Southeast, 
etc.). Every Executive Committee member belongs to their own respective 
UNITY affiliated youth council and my youth council is named the Wind 
River UNITY Council, and I work with them very closely. U.N.I.T.Y's 
mission is to foster the spiritual, mental, physical, and social 
development of American Indian and Alaska Native youth and to help 
build a strong, unified, and self- reliant Native America through 
greater youth involvement. In order to uphold our mission the executive 
committee will facilitate different conferences, workshops, or 
trainings and invite other Native American youth to attend these 
different events so they can take back the information to their 
respective communities and serve as advocates to help battle whatever 
issues that may come up. The executive committee may be asked to focus 
on different issues to present at these events and the topics could be 
any issue such as suicide prevention, healthy relationships, leadership 
and empowerment, or many other issues but the one that I have been 
asked to testify on is the topic of drug prevention and the harmful 
effects that come with the use of illegal drugs.
Drug Use on the Reservation
    Drug use and use of other harmful substances are a major problem on 
the Wind River Reservation. I can remember growing up while attending 
school on the reservation and by the time I had reached eight grade 
many of my peers were already using illegal marijuana. Seeing this not 
only in my own home but in the school I attended was pretty tough to 
witness because, there was always that pressure that was put on me to 
try these harmful substances. I finished out the school year mostly in 
isolation because I made a promise to myself that I would never drink 
alcohol, use tobacco, or experiment with any illegal drugs and to this 
day that's a promise I have kept. I never felt like I fit in among the 
crowd because of this promise so I made the decision to attend high 
school off the reservation so I would have a better learning 
environment and less pressure from my peers to use these drugs. During 
my transition from a junior high school to a high school of the 
reservation I seen that there was more drug use then just marijuana, 
there were students that I knew from grade school that were using 
Methamphetamine. At the time i didn't know how bad or what effects meth 
had on a person until one day our SRO came in and talked about meth and 
how deadly of a drug this was. It was scary knowing how close I was to 
it because many of my peers from the reservation who were using 
marijuana had moved on from this onto meth. Just by seeing how it was 
ruining their lives and how negatively it was affecting their families 
i knew that something needed to be done.
The Effect of Positive Youth Organizations
    When attending Lander Valley High school I participated in the 
Native American club that the school offered and through that club I 
was introduced to the UNITY organization. While attending the different 
meetings I met many Native American youth who like me, wanted to lead a 
clean life and do whatever it took to help better our community by 
decreasing the drug use among minors. Since 2009 I've been actively 
working for UNITY. Within the UNITY organization they have different 
workshops and trainings that give us a blueprint on how to effectively 
battle these issues back home. This ultimately led to my involvement 
with a different youth program E.S.C.A.P.E (Eastern Shoshone Cross Age 
Peer Education) as well as NIDA (National Institute on Drug Abuse) and 
their drug facts week. Through my involvement with these two programs 
our youth were able to go into the schools and present the different 
types of illegal drugs that are on our reservation and how dangerous 
they are. The ESCAPE program has different mentors from the ages of 13-
18 who are trained on the material for illegal drug prevention and 
ESCAPE believes that if this presentation is done by kids who are the 
same age as the mentors, they are more likely to retain this 
information. I was able to be one of these presenters while in high 
school so I traveled around to the different schools within Fremont 
County and would give these drug fact presentations to classes anywhere 
from 1st grade all the way to high school seniors. Through doing this I 
became well informed on the Material and got to see first hand that 
this prevention method was working, less students from 8th grade on up 
were no longer using these drugs and most of the younger students 
weren't being exposed to these harmful drugs.
Possible Solutions
    After my involvement with UNITY and doing these presentations I do 
know that the drug use within the Wind River Reservation has declined 
but there needs to be more action done whether it be by SROs, 
prevention programs, or even Wind River UNITY's involvement. I believe 
that in order to be successful at lowering the amount of drug users 
under the age of 18, there needs to be more incentive programs that 
look at rewarding youth who don't use these drugs. Every school should 
reserve the right to drug test any student at random and with that 
reward students for passing these drug test. It can be something like 
an end of the year trip for every student who can make it a full school 
year not testing positive, or just small little prizes for students who 
pass their UA's. I believe that if the different schools adopted this 
policy or a similar drug testing policy we would see a major decrease 
in youth under the age of 18 using illegal drugs.
    For drug users over the age of 18 I think that every employer 
should be required to drug test every current employee as well as new 
hires before they are allowed to work but instead of firing an employee 
who tests positive the employer puts them through a recovery program 
where the employee has to go to classes that help them get off of the 
drug they test positive for using. Many workplaces will put new hires 
through a drug test and if the hire fails a UA they immediately move 
onto the next applicant but by giving the new hire a chance to redeem 
themselves by stopping this illegal use would help lower the amount of 
drug users. These are just a couple ideas that i feel would really help 
lower this high rate of drug use on our reservation.
Conclusion
    The use of dangerous illegal drugs will always remain a problem no 
matter where you go especially on the Wind River Reservation but I feel 
that if there were more creative incentive programs that were free to 
the public we would see a major decline of drug users. This is one of 
those issues that will take some time to handle but it is not entirely 
impossible to decrease this. If there was a way to stop drug use among 
youth 18 years and younger before they started drug use would no longer 
be a problem in native communities but it does take a lot of work. I 
hope that the Committee takes what I said into consideration and starts 
more prevention programs to help stop this issue.
    Thank you for the opportunity to appear before you today. I am 
happy to answer any questions the Committee may have.

    The Chairman. Well, thank you for your testimony.
    Let me start with you, Chairman St. Clair. You talked about 
cooperation, interagency, intergovernmental, law enforcement, 
service providers engaged with tribal leaders. I was wondering 
how first responder could work more closely with tribal leaders 
to more effectively address and prevent some of the problems 
that we're seeing, are there things that we could be doing all 
collectively better helping the community that you see 
firsthand?
    Mr. St. Clair. And I'll get to your question. One of the 
things, I would like to introduce, and I do have some people--
--
    The Chairman. Please.
    Mr. St. Clair.--that I would like to introduce, is Clarence 
Thomas, who is our Juvenile Delinquency Prevention Probation 
Officer, as well as he's the Eastern Shoshone Director of our 
state program that Claullen talked about. Ms. Kellie Webb, who 
is the Director of our recovery program, and Ms. Janet Weed, 
who is our Vocational Rehabilitation Director, as well as Ms. 
Cathy Keene is our Tribal Health Director. And then also I 
would like to introduce this gentleman that's recently just 
came in, Mr. Starr Weed, who is our eldest tribal member and 
also a World War II veteran and a former council member.
    The Chairman. Welcome. Thank you for your service to the 
country in World War II, tremendous. Welcome all.
    Mr. St. Clair. And so back to your question, how can we 
work together.
    I think a lot of the issues that we need to develop--or 
that we need to continue is communication, sharing information, 
being a little more honest with each other, whether with good 
news or bad news, and I think sometimes we don't always do 
that.
    I know with some of our agencies, as tribal leaders, we 
request for information a lot of times from some of our federal 
partners, and we don't always get that information in a timely 
manner, and I think there really should be. I think there are 
some initiatives out there and we should be getting some of 
this information on a quarterly basis, not only so that we can 
understand or know the issues, but also that we can make 
directives to address those issues, and especially with some of 
our programs that we have, especially with the court, 
especially with our officers.
    We do have some things in place to assist our people, but a 
lot of times, as a lot of things are, it has to do with 
funding, but also we need to know the information so that we 
can develop and address those issues in a proactive way. I know 
in our chambers, we're always talking about being reactive in 
what we have to do. Well, if something happens, then we have to 
react, but a lot of times, we'd really like to be more 
proactive, and we can actually provide those directives 
providing we have the information.
    The Chairman. Well, I guess that does lead into the next 
question for Mr. McSwain from the Indian Health Service, 
helping recovery versus prevention in the first place and any 
thoughts that you have on the best ways that we can work with 
prevention. We've heard from the student, we've heard from Ms. 
Sunny Goggles is doing here with recovery. You are working on 
prevention and seeing how the Indian Health Service can most 
effectively and efficiently and successfully help with 
prevention as well as treatment.
    Mr. McSwain. I think on the prevention side, we need to 
continue the kind of work we're doing but broaden it and focus 
it on training and awareness training. For providers, for 
example, we've got a system, and we want to make sure that our 
providers are aware of what they're seeing when patients come 
in. I'm sort of reflecting on a wide range of things, certainly 
being able to recognize when young people come into the clinic 
or the health center and they're in a state and either--they're 
either high or they're on drugs or they're depressed. And we 
can train our providers to be more alert and aware of that.
    The other part of it is certainly working with the 
communities, as we are. We're working diligently with the 
communities about what kind of tools can we give the 
communities to help them with the awareness as well. So I think 
that's on the preventative side.
    We haven't done as much as we're really focused on 
prevention, we just need to focus a little more particularly on 
this particular topic we're talking about today because on the 
other side--we're doing it on the other side. We're taking care 
of patients and we're hospitalizing them and we're--
unfortunately, in talking with the tribal leaders this morning, 
there's too many people that are dying as opposed to being 
cured, and recidivism occurs with the illicit drugs and drug 
diversion and certainly methamphetamine. We as a system can 
help on both ends, but we've got to do more on the prevention 
side.
    The Chairman. It does seem that people living on 
reservations live sicker lives and die younger, and things we 
can do to help with the prevention and treatment I think are 
critical.
    I appreciate you coming all the way from Washington to 
visit. I know you've had other meetings this morning. Hopefully 
you'll have a chance to go to the clinic. I don't know if 
you've done that yet or not, to visit the clinic. You can see 
the facility where these folks are working, which there have 
been issues. I think it was built before statehood, and we were 
a state in 1890, so facility-wise, so all of those things, so I 
appreciate you coming to see first hand. You have a long 
history with the Indian Health Service, a significant 
commitment to so many individuals, so I hope that this is a way 
to help you see firsthand and maybe come up with some ideas 
with specific plans for helping address the issues right here 
on the Wind River Reservation, and not just for here, but for 
all Indian Country.
    Mr. McSwain. My meeting this morning was actually a tour of 
the facility and, of course, meeting with the tribal leaders. 
And we're going to be meeting this afternoon to talk about the 
Joint Venture Program that they're very interested in, and we 
hope to find a way forward on that as well. And that will even 
increase the ability to provide--because one of the things 
about facilities is providing access to the care, and it's 
larger access. It was very clear to me that the more of the 
care we can provide, the less we have to buy or fly them out of 
here, which is a huge expense. Thank you.
    The Chairman. Thank you.
    Sunny, thank you for what you're doing. It's remarkable 
work.
    When you say that there are people waiting three to six 
months for beds, you worry about what could happen to them in 
that six-month period, and you talk about adults as well as 
adolescents. Can you talk a little bit about your program and 
how it incorporates the families of children as you're working 
with young children as well?
    Ms. Goggles. One of the biggest issues for our program is 
the lack of residential in the area. The closest place that we 
can send them is two hours away, and so for families to go and 
participate in family therapy, a lot of that is a hardship on 
them because they have to drive those distances.
    For adolescent services, our closest facility is usually 
either in Casper or Powell, but if we want a Native-based 
facility, then we're looking at Arizona, South Dakota or 
Montana. And so a lot of that is a big deterrent for people to 
go to residential because they know that they can't have that 
communication with their families, and it's really hard for 
them to make that trip up to those facilities when they can go 
for that necessary family treatment. That's a big component.
    We're moving into a new facility, and we'll have a Level 
III-1 transitional housing facility in the Great Plains area, 
which will be the first time that there's actually going to be 
that level of care in the Arapahoe area. Our closest facility 
is Sho-Rup Lodge, which is 32 miles from our facility right 
now, and they were driving back and forth bringing people to 
our area.
    I think the distance between our communities also makes it 
a big issue, even for people to come to outpatient services. A 
lot of times they're driving, you know, 20, 30 miles, and they 
do that every day. I worked in Fort Washakie for nine years. I 
drove 42 miles to work every day. It's a long drive. But those 
are the things that we expect our clients to do, where if 
they're just getting back on their feet, sometimes they're not 
working, but yet we expect them to drive those distances back 
and forth.
    The lack of funding, the lack of residential nearby is a 
big, big issue for our community. We want our community to heal 
and be better, but it's really difficult to send those people 
for that level of care. And yes, between three to six months, 
we lose people, literally lose them. They lose their lives 
while they're waiting for a bed.
    You know, we're really trying to work together. I think 
there's good relationship between our program, Eastern Shoshone 
Recovery, Sho-Rup Lodge. I think with the tribal programs, 
they're really trying to come together because we see those 
issues, we see those problems, and we just don't want to see 
any more of our community members lose their lives. But those 
are some of our biggest issues.
    In all of our outpatient programs, we incorporate the 
families, so we have a family night. Part of our intensive 
outpatient treatment program, we're actually doing a substance 
abuse parenting class. There's an article that came out that 
talks about positive parenting is a really good deterrent for 
substance abuse, so we're encouraging people to be good parents 
as well as building themselves up, getting over their substance 
use.
    So those are some of the things that we're doing, really 
trying to incorporate the families and then really bring a lot 
of our youth in and work a lot more with our adolescents toward 
prevention. You know, culture is a great tool for prevention 
because in the traditional sense for both the Eastern Shoshone 
and Northern Arapaho Tribes, drugs and alcohol were not a part 
of who we were the culture, and so we're trying to utilize 
that, bring back our identity so we don't believe those social 
norms that we are all alcoholics and drug addicts. So that's 
something that we're absolutely trying to do.
    And we utilize the UNITY Council, we utilize local use, we 
utilize the ESCAPE program, and they're great resources out 
there that are very helpful to us.
    The Chairman. Thank you for your response.
    Mr. Tillman, first of all, congratulations. You're 19. We 
visited in Washington, and you earned the Hathaway Scholarship. 
You're finishing at the Community College, and then you go on 
to an advanced degree beyond that. So you're obviously a role 
model.
    I wanted to ask you about the ESCAPE program a little bit 
more. You kind of went through pretty quickly what the E-S-C-A-
P-E stands for. Would you kind of go over that so that 
everybody in the audience and the recording secretary can get 
that down? It's the Eastern Shoshone----
    Mr. Tillman. Yes, it's the Eastern Shoshone Cross-Age Peer 
Education Program. They all have certified mentors, and when we 
talk about certified mentors, they're anybody between the ages 
of 11 all the way up to 18.
    A certified mentor needs to complete 300-some hours of 
training, and when that comes down to it, we designate an area 
in spring, which is currently this week. When most of the 
schools are in spring break. We get the mentors out there. We 
provide the transportation. We'll train them on issues like 
suicide prevention, drug prevention, healthy lifestyles, and so 
when we get them into the schools, we make sure they're really 
knowledgeable about the information that they're presenting.
    So with that, it's a really good program. It's headed by 
Clarence Thomas. He's right here behind me. He came to me 
when--I think it was right when I was getting out of high 
school--or getting out of grade school going into high school 
and talked to me about the program and what it was going to be. 
And when I was a senior in high school, I was one of the first 
to be a part of this program. He'll send us out to different 
areas. We get to visit different colleges around the country, 
and we really get to see what kind of opportunities are out 
there for youth. So in fact, I'd like to a thank Clarence 
Thomas for everything he's done for me.
    The Chairman. We had talked a little about cross-age. Where 
do you find the best age peers but also looking up to somebody 
for their leadership and say, ``He's done this, and I want to 
be like him when I grow up''?
    Mr. Tillman. Yes, I guess when you look at the age, when we 
go into the schools and we have younger mentors. We have 
mentors who are certified and are 11 years old. They go in, and 
some of the people we present to are their classmates, and yet 
they seem to react to them more than someone like me who's, you 
know, eight years older than them. So it kind of just varies on 
the classes that we go to, so I guess that's--if that answers 
your question.
    The Chairman. Well, because earlier Mr. McSwain talked 
about treatment and addiction as early as age 12, and it's a 
matter of getting the young people to set up these peer 
relationships and these cross-age relationships even earlier on 
so that they don't find themselves in a situation where they 
need the treatment, but rather, to prevent it in the first 
place.
    But we look to you for additional leadership, additional 
answers. Maybe someday you'll be the one holding the hearings. 
But we appreciate your continued leadership and wish you every 
success.
    I want to thank all of you for being here to testify and to 
contribute. I want to thank everybody here in the audience. 
We've had some students coming and going during the hearing. If 
anyone here wants to provide any additional written testimony 
for the record or follow-up information, the hearing record 
will remain open for another two weeks.
    I appreciate all of you coming here. It has been good to 
have so many of the panelists from the first panel stay to hear 
the second panel find some solutions to some of the problems 
that we're facing.
    And I think it was important to have this hearing here in 
Ethete--where we brought people from Washington, D.C. to see as 
well as from Denver, from Cheyenne. You know, Kip knows this 
from his whole life being here in Fremont County, born and 
raised here, but for many others that haven't had that 
exposure, that experience. And I think that there will be many 
positive things coming out of this hearing today, learning the 
best practices, what works here in the Wind River Reservation 
and what we can use throughout the country.
    So thank you all very much for your participation. This 
meeting is adjourned.
    [Whereupon, at 11:54 a.m., the hearing was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
